<html>
<title> - THE NATIONAL SEA GRANT COLLEGE PROGRAM ACT: H.R. 5618</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     THE NATIONAL SEA GRANT COLLEGE 
                         PROGRAM ACT: H.R. 5618 

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2008

                               __________

                           Serial No. 110-103

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-369 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant















                            C O N T E N T S

                              May 21, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     7

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     7
    Written Statement............................................     8

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     8

                               Witnesses:

Mr. Craig N. McLean, Deputy Assistant Administrator for Programs 
  and Administration, Office of Oceanic and Atmospheric Research, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce
    Oral Statement...............................................     9
    Written Statement............................................    11
    Biography....................................................    17

Mr. Paul S. Anderson, President, Sea Grant Association; Director, 
  Maine Sea Grant College Program
    Oral Statement...............................................    18
    Written Statement............................................    19
    Biography....................................................    27

Mr. M. Richard DeVoe, Executive Director, South Carolina Sea 
  Grant Consortium
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    37

Mr. Patrick F. Riley, General Manager, Western Seafood Company, 
  Inc., Freeport, Texas
    Oral Statement...............................................    38
    Written Statement............................................    41
    Biography....................................................    43

Discussion
  Expanding H.R. 5618's Mandate..................................    43
  Technology Transfer............................................    45
  Aquaculture....................................................    46
  Offshore Wind Farms............................................    47
  Conservation and Stewardship...................................    48
  Diversity of Participation.....................................    49
  Matching Funds Requirement.....................................    50
  Collaboration With NMFS........................................    50
  Fishing Industry Challenges....................................    51
  More on Offshore Wind Farms....................................    52
  Cooperation Between Sea and Land-based Programs................    54
  Rainwater as a Drinking Source.................................    56

              Appendix: Additional Material for the Record

H.R. 5618, the National Sea Grant College Program Amendments Act 
  of 2008........................................................    60

Statement to the Subcommittee on Fisheries and Oceans, Committee 
  on Natural Resources, U.S. House of Representatives on April 3, 
  2008 by John T. Woeste, Vice Chair, National Sea Grant Review 
  Panel, Office of Oceanic and Atmospheric Research, National 
  Oceanic and Atmospheric Administration, U.S. Department of 
  Commerce.......................................................    71


         THE NATIONAL SEA GRANT COLLEGE PROGRAM ACT: H.R. 5618

                              ----------                              


                        WEDNESDAY, MAY 21, 2008

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2325 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     The National Sea Grant College

                         Program Act: H.R. 5618

                        wednesday, may 21, 2008
                         10:00 a.m.-12:00 p.m.
                   2325 rayburn house office building

Purpose

    On Wednesday, May 21, 2008 the Subcommittee on Energy and 
Environment of the Committee on Science and Technology will hold a 
hearing to receive testimony on H.R. 5618, the National Sea Grant 
College Program Amendments Act of 2008.
    H.R. 5618, introduced by Representative Bordallo (D-GU) Chair of 
the Committee on Natural Resources Subcommittee on Fisheries, Wildlife, 
and Oceans, reauthorizes and amends the National Sea Grant College 
Program Act. The purpose of the hearing is to receive testimony on H.R. 
5618, the National Sea Grant College Program Act of 2008.
    The hearing will focus on the legislation to reauthorize the 
National Sea Grant Program through fiscal year 2014. The hearing will 
also examine the program's major accomplishments, program activities, 
and the effectiveness of the extension and outreach aspects of the 
program.

Witnesses

        <bullet>  Mr. Paul Anderson, President, Sea Grant Association 
        and Director, Maine Sea Grant College Program, will represent 
        the institutions through the association of the 32 Sea Grant 
        Programs from around the Nation. He will discuss the importance 
        of supporting the National Sea Grant College Program, as well 
        as the program's activities, accomplishments, contribution to 
        NOAA's mission, and offer recommendations on how to strengthen 
        the research, education and training components of the program.

        <bullet>  Mr. Patrick Riley, General Manager of Western 
        Seafood, Freeport, TX, will represent the partners and 
        stakeholders of the National Sea Grant College Program and the 
        use of information generated through the programs extension and 
        outreach efforts.

        <bullet>  Mr. Craig McLean, Deputy Assistant Administrator for 
        Programs & Administration, Office of Oceanic and Atmospheric 
        Research (OAR), National Oceanic and Atmospheric Administration 
        (NOAA), will discuss the mission and importance of the Sea 
        Grant Program, future plans for the program, programmatic 
        issues, and issues the agency would like to see addressed in 
        the bill.

        <bullet>  Mr. M. Richard DeVoe, Executive Director, South 
        Carolina Sea Grant Consortium, will discuss the South Carolina 
        Sea Grant program and its relationship to the overall Sea Grant 
        program and summarize key recommendations.

Background

    The National Sea Grant College Program (Sea Grant) was established 
in 1966 by the National Sea Grant College Program Act (33 U.S.C.  
1121-1131). It was last reauthorized in 2002. The Sea Grant Program is 
intended to be the marine, coastal, and Great Lakes counterpart to the 
Land Grant College system which serves the agricultural research and 
extension needs of each state. Each of the 32 Sea Grant programs works 
with the National Sea Grant office in the National Oceanic and 
Atmospheric Administration (NOAA) and the coastal community in their 
state or territory to develop research priorities to promote 
sustainable use and management of coastal or Great Lakes resources. The 
Sea Grant program is supported through a combination of federal 
appropriations and through State appropriations and in-kind 
contributions.
    The Sea Grant program is comprised of the National Oceanic and 
Atmospheric Administration (NOAA) National Sea Grant Office (NSGO), 32 
university-based State programs, the National Sea Grant Review Panel, a 
National Law Center, a National Sea Grant Library and hundreds of 
participating institutions.
    The Sea Grant network addresses key issues and opportunities in 
areas such as aquaculture, aquatic nuisance species, marine 
biotechnology, seafood safety, fisheries management, coastal business 
and development, coastal habitat, water quality, and coastal hazards. 
Sea Grant conducts priority-driven research, transfers scientific 
results to the public, provides educational opportunities from K-12 to 
graduate degrees, and conducts successful outreach programs. Sea Grant 
is a partnership among academia, government, and the private sector and 
uses a combination of research, education and outreach to improve 
management of the coastal, marine, and Great Lakes environment.

The National Ocean Research Priorities Plan (ORPP)

    The National Science and Technology Council (NSTC) established a 
Joint Subcommittee on Oceans in 2003. At the direction of the 
President's Ocean Action Plan, this group was expanded in 2005 to 
include Science and Technology (JSOST). The JSOST reports to the 
Committee on Environment and Natural Resources in addition to the 
Interagency Committee on Ocean Science and Resource Management 
Integration (ICOSRMI). JSOST developed the National Ocean Research 
Priorities Plan and Implementation Strategy and released it in January 
2007. The ORPP was designed to establish priorities for ocean science 
and technology for the next decade. Using this new interagency 
priorities plan for ocean science, the National Sea Grant Office in 
NOAA and the Sea Grant colleges nationwide have developed a new 
strategic plan that links Sea Grant's priorities with the larger 
interagency effort.
    The ORPP provides guidance on how the various ocean science sectors 
(government, academia, industry, and non-government entities) can and 
should be engaged, individually or through partnerships, to address the 
areas of greatest research need and opportunity. Given the magnitude of 
the task, the report established priorities at a relatively high level 
and the implementation strategies were not detailed. Of specific 
interest to Sea Grant is that one of the actions identified in the 
Subcommittee on Integrated Management of Ocean Resources' (SIMOR) 2006 
work plan is for Sea Grant's university network to facilitate the 
development of Regional Research and Information Plans. These Regional 
Plans will outline one mechanism for regional ORPP implementation and 
identify the top research and information priorities.

National Academy of Sciences Evaluation

    The National Sea Grant College Program Amendments Act of 2002 
directed NOAA to contract with the National Research Council to 
evaluate Sea Grant's process of reviewing individual programs and 
recommend ways to improve the overall effectiveness of the evaluation 
process to ensure fairness, consistency, and enhancement of 
performance. The National Academy of Sciences completed its review in 
2006 and issued its report, Evaluation of the Sea Grant Program Review 
Process.
    The 2006 report recommended:

        <bullet>  strengthening the strategic planning process for the 
        individual programs,

        <bullet>  increasing the interaction between the National Sea 
        Grant Office and the individual programs, and

        <bullet>  improving the program rating and ranking process 
        through annual assessments by the national office.

    The Report commented on the importance of improving strategic 
planning. Some individual Sea Grant programs have developed strategic 
plans that reflect active collaboration with the National Sea Grant 
Office (NSGO) as well as its local constituents. However, other 
individual Sea Grant programs have been slow to develop strategic plans 
or have strategic plans that are poorly designed, poorly integrated 
with the national strategic plan, or lack specificity for addressing 
local and regional needs.
    The peer review and assessment process of the Sea Grant program 
evolved significantly since its inception. The National Academy Report 
discusses the evolution of the evaluation process and makes 
recommendations to bring balance to the process with regards to 
appropriately directed competition and development of a robust national 
program whose foundation is the network of local programs created and 
maintained by individual Sea Grant colleges and institutions and 
administered by the NSGO.
    The NAS report suggests there should be a balance in the assessment 
process with regard to producing improvement in the individual Sea 
Grant programs while also encouraging its strengths. The panel 
questions the benchmarks used in the evaluations and whether they are 
sufficiently ambitious. If the benchmarks are designed to reflect 
annually updated, quantitative measures of the significance and impact 
of research, outreach, and education activities, it would be easier to 
contrast program performance relative to other programs and to the 
program's past performance. The report also states that the evaluation 
criteria currently used do not adequately emphasize the importance of 
network building among individual programs and how such activities help 
to link the local and regional efforts into an effective nationwide 
program.
    Some aspects of the current program evaluation process and ranking 
appear to have fostered an increase in competition and lowered the 
level of cooperation between individual Sea Grant programs. The Academy 
panel concluded that this tendency was not consistent with efforts to 
build a cooperative nationwide effort.\1\
---------------------------------------------------------------------------
    \1\ National Academy of Sciences, National Research Council. 
Evaluation of the Sea Grant Program Review Process (2006). http://
www.nap.edu/catalog/11670.html

Changes to the Sea Grant Program in H.R. 5618

    H.R. 5618 reauthorizes the National Sea Grant College Program and 
amends several sections of the law including sections related to the 
interaction between the National Sea Grant Office and the individual 
programs; programmatic performance reviews; and strategic planning. A 
number of the changes are technical or clarifying in nature or alter 
specific cost-sharing or cost allocation formulas. A Section-by-Section 
of the bill is included below.
    The Findings are amended by including reference to the National 
Ocean Research Priorities Plan and pointing to the Sea Grant program as 
the most appropriate program for carrying out the priorities listed in 
the Plan.
    The bill would amend the law by adding two new definitions. The 
first is a ``regional research and information plan'' which expands Sea 
Grant's role to include regional and national projects conducted by two 
or more Sea Grant institutions. The second is the ``National Ocean 
Research Priorities Plan and Implementation Strategy'' which is a plan 
issued by the Joint Subcommittee on Ocean Science and Technology 
(JSOST).
    In the 2002 authorization, our committee amended the Sea Grant 
review process to require the Director to evaluate each Sea Grant 
institute's performance and then to place the institutes into one of 
five categories based on their performance rating. This ranking was 
then to be used as the basis for allocating funding among the 
institutes with the best performing being rewarded with any increased 
appropriations made available. H.R. 5618 repeals this provision. The 
Director is still required to evaluate and assess the institutes.
    H.R. 5618 designates the Sea Grant Review Panel as the National Sea 
Grant Advisory Board. The duties of the Board are to advise the 
Secretary and the Director on strategies for utilizing Sea Grant 
institutes to address ocean, coastal and Great Lakes issues; on the 
designation of new Sea Grant institutes; and any other matter the 
Secretary refers to the Board.
    H.R. 5618 authorizes increases in funding levels from $66 million 
in fiscal year 2009 to $100 million in fiscal year 2014. This is a 
significant yet measured improvement over the approximately $57 million 
that the program has been allocated over recent years.

                      H.R. 5618 SECTION-BY-SECTION

SECTION 1. SHORT TITLE

    Section 1 entitles the legislation as the ``National Sea Grant 
College Program Amendments Act of 2008.''

SECTION 2. REFERENCES

    Section 2 clarifies that all amendment references in the 
legislation are made to the National Sea Grant College Program Act (33 
U.S.C. 1121 et seq.).

SECTION 3. FINDINGS AND PURPOSES

    Section 3 amplifies the extension aspects of the Sea Grant program 
and cites the relevance of the National Ocean Research Priorities Plan 
and Implementation Strategy to the Sea Grant Program.

SECTION 4. DEFINITIONS

    Section 4 defines key terms included within the text of the 
proposed legislation, including `regional research and information 
plan' and `National Ocean Research Priorities Plan and Implementation 
Strategy' where they appear in the bill.

SECTION 5. NATIONAL SEA GRANT COLLEGE PROGRAM, GENERALLY

    Section 5 amends the Program Elements to expand Sea Grant programs 
to include regional and national projects among Sea Grant institutions 
and to add regional strategic investments in projects undertaken 
through Sea grant projects. Section 5 also augments the functions of 
the Director of the National Sea Grant College Program to include 
encouraging collaborations among Sea Grant colleges and institutions. 
This section also strikes the Sea Grant program performance ranking 
system for allocating additional resources on the basis of performance.

SECTION 6. PROGRAM OR PROJECT GRANTS AND CONTRACTS

    Section 6 exempts the Dean John A. Knauss Marine Policy Fellowship 
Program from having to match grant awards in order to achieve parity 
between fellows placed in Congressional offices with those fellows 
placed in federal agencies.
    This section also increases the percentage of funds exempt from the 
non-federal match requirement from the current one percent to five 
percent.

SECTION 7. EXTENSION SERVICES BY SEA GRANT COLLEGES AND SEA GRANT 
                    INSTITUTES

    Section 7 clarifies that one of the requirements for designation 
includes an extension program (as opposed to an ``advisory service'').

SECTION 8. TECHNICAL CORRECTION RELATING TO FELLOWSHIPS

    Section 8 updates the statutory language requiring a report every 
two years on efforts to include minority and economically disadvantaged 
students.

SECTION 9. NATIONAL SEA GRANT ADVISORY BOARD

    Section 9 expands the responsibilities of the National Sea Grant 
Review Panel, renaming the panel as the ``National Sea Grant Advisory 
Board'' to more appropriately and accurately describe its purpose and 
function.

SECTION 10. AUTHORIZATION OF APPROPRIATIONS

    Section 10 increases authorized funding levels from $66 million to 
$100 million for the period between Fiscal Year 2009 through Fiscal 
Year 2014.
    Chairman Lampson. Good morning. I want to welcome everyone 
to today's hearing, to the National Sea Grant College Program 
Act: H.R. 5618.
    H.R. 5618 was introduced by our colleague, Congresswoman 
Madeleine Bordallo, Chair of the Subcommittee on Fisheries, 
Wildlife and Oceans of the Committee on Natural Resources. The 
Sea Grant program is a partnership between State and Federal 
Government to promote the understanding, conservation and 
management of our ocean, coastal and Great Lakes resources.
    Growth of the National Sea Grant College Program has been 
stunted during the last two years, and over time the flat 
funding level has impacted the services delivered on a daily 
basis to our coastal communities. With the cost of research and 
education rising, programs have been forced to reduce staff and 
a number of education and outreach activities as well. H.R. 
5618 seeks to amend the Sea Grant Program to implement changes 
in the program recommended by the National Academy of Sciences. 
Some of these improvements include increasing the interaction 
between the National Sea Grant Office and the individual State 
programs as well as improving programmatic performance reviews 
and authorizing increased funding levels.
    We have a distinguished panel of witnesses here today who 
will highlight the activities and accomplishments of this 
program and offer their recommendations as to how we can 
improve this important research, education and extension 
program. I want to thank all of our witnesses for being here 
today.
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    Good morning. I want to welcome everyone to today's hearing on the 
National Sea Grant College Program Act: H.R. 5618. H.R. 5618 was 
introduced by our colleague, Congresswoman Madeleine Bordallo, Chair of 
the Subcommittee on Fisheries, Wildlife, and Oceans of the Committee on 
Natural Resources.
    The Sea Grant program is a partnership between State and Federal 
Government to promote the understanding, conservation, and management 
of our ocean, coastal, and Great Lakes resources.
    Growth of the National Sea Grant College Program has been stunted 
during the last few years. Over time the flat funding level has 
impacted the services delivered on a daily basis to our coastal 
communities.
    With the costs of research and education rising, programs have been 
forced to reduce staff and a number of education and outreach 
activities.
    H.R. 5618 seeks to amend the Sea Grant Program to implement changes 
in the program recommended by the National Academy of Sciences.
    Some of these improvements include increasing the interaction 
between the National Sea Grant Office and the individual State 
programs; as well as improving programmatic performance reviews and 
authorizing increased funding levels.
    We have a distinguished panel of witnesses here today who will 
highlight the activities and accomplishments of this program and offer 
their recommendations as to how we can improve this important research, 
education, and extension program.
    I want to thank all of our witnesses for being here today. At this 
time, I would like to recognize our distinguished Ranking Member, Mr. 
Inglis of South Carolina for his opening statement.

    Chairman Lampson. At this time I would like to yield to my 
distinguished colleague from South Carolina, our Ranking 
Member, Mr. Inglis, for an opening statement.
    Mr. Inglis. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Since its inception in 1966, the National Sea Grant Program 
has been a successful collaborative effort of the Federal 
Government, State governments and universities. Under the 
program, these groups work together to understand, develop and 
conserve our coastal and ocean resources. That is particularly 
important for us in South Carolina and other coastal states. 
Currently, more than half of the U.S. population lives on the 
coast and that number is increasing, and coastal and ocean 
resources generate more than $1 trillion of the annual gross 
domestic product.
    This reauthorization should equip the Sea Grant program to 
continue to provide sound science and management products to 
such a large part of our economy and population.
    Thank you, Mr. Chairman, and I look forward to hearing from 
our witnesses and hearing their perspectives on this 
legislation and any suggestions they may have as to 
improvements.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Thank you for holding this hearing, Mr. Chairman.
    Since its inception in 1966, the National Sea Grant program has 
been a successful collaborative effort of the Federal Government, State 
governments, and universities. Under the program, these groups work 
together to understand, develop, and conserve our coastal and ocean 
resources.
    Currently, more than half of the U.S. population lives on the 
coasts, and coastal and ocean resources generate more than $1 trillion 
of the annual GNP. This reauthorization should equip the Sea Grant 
program to continue to provide sound science and management products to 
such a large part of our economy and population.
    Thank you again, Mr. Chairman. I look forward to hearing from the 
panelists on their perspectives of this legislation and any suggestions 
they may have to improve it.

    Chairman Lampson. Thank you, Mr. Inglis.
    I ask unanimous consent that all additional opening 
statements submitted by the Committee Members be included in 
the record. Without objection, so ordered.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Mr. Chairman, I appreciate the Subcommittee giving attention to 
this matter and the reauthorization of H.R. 5618, the National Sea 
Grant College Program Act.
    The National Sea Grant College Program was established in 1966 and 
has since grown in stature and responsibilities since its most recent 
reauthorization in 2002. The program is an example of a dynamic 
partnership among academia, government and the private sector to 
improve the management of the coastal, marine and Great Lakes 
environment.
    Unfortunately, as with many important federal programs, difficult 
economic times have not allowed the Sea Grant Program's budget to grow 
to keep up with inflation, much less be granted with a substantial 
increase.
    I look forward to hearing our witnesses' testimony today and 
working with my colleagues on the Committee to improve and strengthen 
this important program. Thank you, Mr. Chairman, I yield back.

    Chairman Lampson. It is my pleasure to introduce the 
witnesses for this morning. Mr. Craig McLean is the Deputy 
Assistant Administrator for Programs and Administration for 
Oceanic and Atmospheric Research at the National Oceanic and 
Atmospheric Administration, NOAA. Mr. Paul S. Anderson is the 
President of the Sea Grant Association and the Director of the 
Maine Sea Grant College Program. Mr. M. Richard DeVoe is the 
Executive Director of the South Carolina Sea Grant Consortium, 
and Mr. Patrick Riley is the General Manager of Western Seafood 
in Freeport, Texas, which is my next-door neighbor. Welcome.
    You will each have five minutes for your spoken testimony. 
Your written testimony will be included in the record for the 
hearing. When you all complete your testimony, we will begin 
with questions. Each Member will have five minutes to question 
the panel.
    Mr. McLean, we will begin with you, and please start.

      STATEMENT OF MR. CRAIG N. MCLEAN, DEPUTY ASSISTANT 
   ADMINISTRATOR FOR PROGRAMS AND ADMINISTRATION, OFFICE OF 
    OCEANIC AND ATMOSPHERIC RESEARCH, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. McLean. Thank you, Mr. Chairman. Good morning Ranking 
Member Inglis, and Mr. Bartlett, good morning. I am pleased to 
be here this morning to discuss the National Sea Grant College 
Program. It is a very important program to NOAA.
    Sea Grant is an integral part of NOAA's mission to 
understand and predict the Earth's environment and to conserve 
and manage coastal, marine and Great Lakes resources. Sea Grant 
is a national network comprised of the NOAA National Sea Grant 
Panel, the Sea Grant Office, 32 university-sponsored programs, 
the Sea Grant Law Library and the Sea Grant Law Center, 
fellowship programs and hundreds of participating institutions. 
Each Sea Grant State program is established through competition 
and receives evaluation every four years. By linking university 
resources and expertise with local communities and user groups, 
Sea Grant promotes the effective transfer of science-based 
information in support of decision-making. In short, Sea Grant 
takes complex information and shows people how to use it and 
how to solve real problems.
    Sea Grant also expands the reach and effectiveness of other 
NOAA programs and other partners by leveraging additional 
funds. Sea Grant Programs are required to match every $2 of 
federal funding with $1 of contributory funding and many states 
far exceed this match. In 2006, for example, State Sea Grant 
programs provided $27 million of matching funds for their NOAA 
awards and stimulated contributions of an additional $62 
million from a variety of State and federal sources.
    Over the past two years, we have aggressively responded to 
the recommendations of the 2006 National Research Council 
report on Sea Grant. The program is developing a more 
coordinated strategic plan for the next five years and will 
address issues affecting coastal regions locally and 
nationally.
    In the future, Sea Grant will also play a critical role in 
identifying the coastal and constituent needs for climate 
research, climate services and climate-related information. 
This will be a very important contribution for Sea Grant.
    NOAA is supportive of efforts to reauthorize the National 
Sea Grant College Program Act, and in fact, the Administration 
is transmitting to Congress the proposed bill that the 
Administration has to offer and perhaps it may have even 
arrived as early as last night.
    The Administration's reauthorizing bill and H.R. 5618, the 
National Sea Grant College Program Amendments Act of 2008, take 
very similar approaches to strengthening this program. Both 
bills promote Sea Grant program investments in national 
activities by increasing the non-match funding pool. The 
Administration bill proposes an increase in the non-match 
funding pool from one percent to five percent and includes the 
entire Knauss Fellowship Program.
    Both bills retain the requirements to evaluate and assess 
the performance of State Sea Grant programs but removes the 
rigid ranking requirements amongst the states. This change 
would remove any disincentive to cooperation in the National 
Research Council report as it had identified and thereby 
facilitate the development of regional collaborations among the 
Sea Grant programs.
    Both bills seek to strength Sea Grant programs by elevating 
the role and functions of the National Sea Grant Review Panel. 
Over the past 30 years, the role of the panel has evolved with 
Sea Grant's influence and effectiveness. Consistent with the 
recommendations of the National Research Council report, both 
bills propose to change the duties of the panel on providing 
strategic advice regarding the national program as well as 
providing an assessment of the overall effectiveness of the 
program.
    The Administration's proposed reauthorization bill and H.R. 
5618 do have nominal differences, and one of them is the size 
of the cap on Administration funding to support the program and 
on the matching fund requirements in order to support the 
development of regional and national partnerships. The 
Administration bill advances Sea Grant's capacity for regional 
and national leadership by adjusting the cap of Administration 
funding from five to seven percent, which is responsive to the 
NRC's report recommendation to allocate resources sufficient to 
allow the NOAA National Sea Grant Program Office to accomplish 
its mission of oversight, leadership and guidance of the 
program.
    The National Sea Grant Office today is about half the size 
it was 15 years ago in terms of staff, and the seniority of 
that staff has diminished as well. The increasing in funding 
for the National Sea Grant College Office will strengthen the 
core of the Sea Grant network. To promote Sea Grant's 
involvement in regional and national partnerships, the 
Administration bill proposes exempting these partnership 
activities from the matching fund requirements. We recognize 
the significance of the matching fund requirement as a means to 
leveraging funding. However, the requirement has at times made 
it difficult to form regional and national partnerships and 
interagency collaborations. The proposed change would allow Sea 
Grant programs to collaborate with a broader array of partners 
to address issues that are best addressed regionally and 
nationally.
    In closing, Sea Grant is an effective program and it 
addresses the right problems defined by constituents, produces 
meaningful science and relates directly to the attainment of 
NOAA's mission objectives. Sea Grant's ability to leverage 
resources and address issues in partnership and with other 
entities is truly unique in government. The reauthorization of 
Sea Grant is important to NOAA and we look forward to working 
with you as the legislation moves through Congress. Together we 
can ensure that the National Sea Grant College Program 
continues to generate practical solutions based on sound 
science that address real problems in real places.
    Thank you, and I look forward to addressing your questions.
    [The prepared statement of Mr. McLean follows:]
                 Prepared Statement of Craig N. McLean
    I am Craig McLean, Deputy Assistant Administrator for Programs and 
Administration of the Office of Oceanic and Atmospheric Research, 
within the National Oceanic and Atmospheric Administration (NOAA). The 
Office of Oceanic and Atmospheric Research conducts and sponsors the 
scientific research, environmental studies, and technology development 
needed to improve NOAA's operations and applications, and broaden our 
understanding of the Earth's atmosphere and oceans. NOAA's National Sea 
Grant College Program is contained within the Office of Oceanic and 
Atmospheric Research. The National Sea Grant College Program is NOAA's 
primary university-based program in support of coastal resource use and 
conservation. Sea Grant's research, outreach, and education programs 
promote better understanding, stewardship, and use of America's coastal 
resources.
    I am pleased to be here to tell you about the National Sea Grant 
College Program. Today, I will discuss Sea Grant's vision and mission, 
what lies ahead for the program, the issues we would like to see 
addressed in its upcoming reauthorization, and why this program is 
important to NOAA.

Sea Grant's Vision and Mission

    Sea Grant's legislative charge (33 U.S.C. 1121) is ``to increase 
the understanding, assessment, development, utilization, and 
conservation of the Nation's ocean, coastal, and Great Lakes resources 
by providing assistance to promote a strong education base, responsive 
research and training activities, broad and prompt dissemination of 
knowledge and techniques, and multi-disciplinary approaches to 
environmental problems.''
    The National Sea Grant College Program envisions a future where 
people live along our coasts in harmony with the natural resources that 
attracted and continue to sustain them. This is a vision of our 
nation's coasts in which we use our natural resources in ways that 
capture the economic and recreational benefits they offer, while 
preserving their quality and abundance for future generations.
    Sea Grant is an integral part of NOAA's mission and instrumental in 
helping the agency achieve its objectives in coastal communities 
throughout the United States and our territories. Sea Grant's research, 
outreach and education activities are connected to NOAA's mission, 
which is to understand and predict changes in Earth's environment and 
conserve and manage coastal and marine resources to meet our nation's 
economic, social, and environmental needs.

The National Sea Grant College Program

    The National Sea Grant College Program was created 42 years ago to 
unite the academic power of the Nation's universities with a wide range 
of public and private sector partners. Sea Grant brings together 
government, universities and citizens living and working in our 
nation's coastal and Great Lakes states and territories to respond to 
problems and opportunities in these complex and dynamic environments. 
Through these partnerships, Sea Grant provides integrated research, and 
outreach and education programs aimed at creating tangible benefits for 
ocean, coastal and Great Lakes environments and communities.
    Sea Grant is a national network comprised of NOAA's National Sea 
Grant Office, 32 university-based State programs, the National Sea 
Grant Review Panel, a National Law Center, a National Sea Grant Library 
and hundreds of participating institutions. Each Sea Grant program is 
established through a competitive process and reviewed every four 
years. The Sea Grant network enables NOAA and the Nation to harness the 
best science, technology and human expertise to balance human and 
environmental needs in coastal regions.
    Sea Grant's alliance with major research universities provides 
support to more than 3,000 scientists, outreach specialists, educators, 
and students every year. Collectively, Sea Grant has formed 
partnerships with over 4,000 organizations to help reach its mission 
goals. Sea Grant's university-based programs develop future scientists 
and managers to conduct research and to guide the responsible 
management of our nation's coastal, ocean, and Great Lakes resources. 
As a pioneer in what is referred to as ``translational research: from 
discovery to application,'' Sea Grant strives for unbiased, science-
based information that is accessible to all. The diverse capabilities 
of Sea Grant's network of State programs enable the organization to be 
creative and responsive in generating policy-relevant research and in 
disseminating scientific and technological discoveries to a wide array 
of audiences. Because it is science-based, non-regulatory, and has an 
established presence in local communities, Sea Grant is a trusted 
broker, working to increase coastal, ocean and Great Lakes literacy 
among decision-makers and the public as a whole. Sea Grant's commitment 
to these core values is vital to achieving its mission.
    With its strong research capabilities, local knowledge and on-the-
ground workforce, Sea Grant is ready to identify and capitalize on 
opportunities, and to generate practical solutions. Sea Grant 
extension, with its unique relationship with coastal partners, helps 
identify key local and regional issues for the university-based 
programs whose resources are directed to solve these problems. 
Extension is defined as the effective transfer of science-based 
information by university specialists and agents to support decision-
making by individuals, groups or institutions. Extension agents link 
university resources and expertise with local communities and user 
groups. In short, these specialists take complex information and show 
people how to use it to solve problems. For example, Sea Grant was 
successful in working with the city of Cleveland, Ohio to construct 
artificial reefs from the rubble of the old Cleveland Municipal Stadium 
in the near-shore zone of Lake Erie. Estimates indicate that these 
reefs attract 12 to 66 times as many fish as the surrounding non-reef 
areas and produce approximately $1 million of economic benefit 
annually. This is just one example of how Sea Grant agents work with 
communities in order to share expertise and solve problems.
    Sea Grant also expands the reach and effectiveness of NOAA and 
other partners in planning for and managing the future of America's 
ocean, coastal and Great Lakes resources by leveraging additional 
funds. Sea Grant programs are required to match every $2 of federal 
funding with $1 of non-federal funds, and many State programs far 
exceed this match. The match required for federal funding also ensures 
this country receives significant benefit from each dollar invested by 
the Federal Government in Sea Grant.
    The success of Sea Grant's approach to coastal resource use and 
stewardship is being recognized globally. Other countries are using the 
Sea Grant model when designing their own programs for engaging 
universities in marine research through granting programs, outreach, 
and education. With the assistance of Sea Grant, Korea has developed 
its own Sea Grant program and Indonesia has created a Sea Partnership 
Program with a network that extends country-wide.

Sea Grant's Work

    Sea Grant addresses emerging issues at local, regional and national 
levels through its integrated national network by bringing decades of 
experience and expertise through its scientists, extension agents, 
educators and communicators located in every coastal and Great Lakes 
state, Puerto Rico and the U.S. Pacific island territories.
    By investing in mission-priority research, Sea Grant addresses 
issues such as growth in coastal communities, hurricane preparedness 
and response, coastal storms and tsunamis, invasive species, 
development of drugs and industrial materials from marine resources, 
fish and shellfish farming and seafood safety. Each year, Sea Grant 
supports some 400 research projects investigating a wide variety of 
marine and coastal topics, and produces more than 700 peer-reviewed 
journal articles and book chapters.
    While research is a crucial component of Sea Grant, transferring 
the results of research to the people who can benefit from this 
knowledge is equally important. Sea Grant's network of more than 300 
extension experts work with coastal communities and decision-makers to 
provide informal education and transfer new technologies. These 
extension experts work with communities in countless ways, including:

        <bullet>  helping fish farmers develop environmentally-sound 
        shellfish farming practices;

        <bullet>  explaining the impacts of land use on water quality; 
        and

        <bullet>  providing technical assistance to communities 
        planning for and dealing with hurricanes and other natural 
        hazards.

    Education is an integral part of Sea Grant's outreach program. A 
network of 30 Sea Grant educators work with K-12 teachers to bring 
environmental sciences into the classroom and the classroom out into 
the natural environment. Sea Grant's support for higher education over 
three decades of service has trained more than 12,000 college and 
graduate students, preparing them to be the next generation of coastal 
stewards. More than 650 alumni within the Dean John A. Knauss Marine 
Policy Fellowship program now hold positions in NOAA, other partner 
agencies, the industry sector, and non-governmental organizations. This 
strong workforce is needed to solve the major environmental challenges 
that face the Nation and the planet.
    Each program within the Sea Grant network has a dedicated 
communications staff that works to deliver accurate, reliable, science-
based information. Through newsletters, brochures, posters, articles, 
web sites, books, radio, videotape, and other media, Sea Grant's 
network of more than 100 communicators have earned their reputations as 
honest brokers of information about marine and coastal issues. In 
recent years, Sea Grant communications experts have created products 
ranging from environmental radio podcasts and video documentaries to 
informational guides and books about the history and science of the 
Nation's coastal regions.
    Sea Grant's place-based programs throughout the Nation give the 
organization the flexibility to respond to emerging needs. Sea Grant 
worked throughout coastal Louisiana following Hurricanes Katrina and 
Rita to help coastal communities recover. The recovery of Louisiana's 
Plaquemines Parish following Hurricanes Katrina and Rita was an example 
of Sea Grant's ability to respond to these disasters. Sea Grant's work 
in Louisiana included partnerships with the private sector. Investment 
firm Goldman Sachs Group Inc. sent 30 volunteers and donated $50,000 to 
the Sea Grant-led volunteer efforts. The funding helped Sea Grant 
extension agents organize volunteer workers who came into the city and 
put them in touch with people with the greatest needs to help 
Plaquemines Parrish recover in time for fishing season. In addition, 
Sea Grant worked with energy firm Royal Dutch Shell plc and partners to 
facilitate the donation of an industrial ice house to serve Cameron 
Parish. The ice house was a critical component of the re-vitalization 
of the Louisiana seafood industry.
    Sea Grant's research efforts have catalyzed a greater understanding 
of our coastal resources. Sea Grant's investment in biotechnology, for 
instance, has led to the development of novel marine products and 
processes. Impacts from this research extend from the marine and 
aquatic realm to dimensions of human health and safety. A Great Lakes 
Sea Grant researcher invented two new technologies to mass produce 
anti-toxins and gauge infections. One will harvest a human antidote to 
counter bioterrorism; the other technology detects deadly pathogens 
like salmonella, E. coli, and cholera. This patent-pending biosensor 
process can detect the state of more than 50 pathogens within minutes.
    Another Sea Grant research project eliminated organic contaminants 
from menhaden oil. Fish oil is an important ingredient in pet foods and 
aquaculture feeds, but organic contaminants have kept the processed 
product from being sold in lucrative international markets. The 
research demonstrated a simple refining process to eliminate dioxin and 
other impurities from crude fish oil allowing a fish oil producer 
operating in the Gulf of Mexico to deliver a product that meets 
European Union specifications. A Sea Grant investment of less than 
$50,000 saved 200 jobs in Louisiana and helped boost U.S. exports.
    Sea Grant conducts socioeconomic research to help coastal managers 
formulate policies that minimize the negative ecological impacts of 
coastal development and coastal resource use. For example, Sea Grant 
worked with the Rhode Island Coastal Resources Management Council to 
help them develop an innovative Urban Coastal Greenway Policy that 
provides a new level of flexibility to a previously rigid coastal 
development regulatory structure--both in terms of environmental 
protection and in building and landscape aesthetics. The policy enabled 
the partners to collaborate more closely with developers on their plans 
during the application process, and to tailor the plans to best benefit 
the coastal environment, the developer and the public alike. As a 
result, Sea Grant and its partners have been able to secure almost two 
miles of new public access along the urban shore, while still 
maintaining the economic integrity of development plans and the 
environmental quality of a critical portion of northern Narragansett 
Bay.
    Sea Grant helps the seafood industry increase quality and safety, 
add value, lower costs and expand seafood supplies and markets, with 
more than 30 years of experience working in every coastal and Great 
Lake state and involving every type of seafood product. Since 2001, 
training courses led by Sea Grant extension and others with the 
National Seafood Hazard Analysis and Critical Control Point (HACCP) 
Alliance (an intergovernmental partnership with industry and academia) 
have reached about 5,000 U.S. processing plants, 6,000 importers and 
international suppliers and 14,000 employees and regulators. The U.S. 
Department of Health and Human Services estimates that the HACCP 
program has prevented between 20,000 and 60,000 seafood-related 
illnesses a year, translating into savings of about $155 million 
annually. In one survey of seafood businesses, 77 percent reported that 
they could not have met FDA regulations without the HACCP training 
programs. Sea Grant extension staff have also extended HACCP protocols 
to address invasive species, offering training to aquaculturists in the 
Great Lakes in order to prevent the spread of highly destructive 
aquatic invasive species.
    Sea Grant researchers and outreach specialists are uniquely 
situated to promote collaborations on subjects critical to decisions 
being made by fisheries managers on a variety of topics from stock 
assessment, habitat and ecosystem health, environmental contamination 
and conflict resolution, among many others. For example, Sea Grant 
researchers have developed a revolutionary, rapid and reliable method 
of DNA analysis to identify shark species from fins, carcasses and 
other body parts. This one-step forensics technique allows for the 
identification of U.S. fishing vessels suspected of catching and 
selling protected species such as the dusky and the great white shark. 
This technology helped federal prosecutors confirm the presence of 
prohibited species in four of five investigations, resulting in fines 
of more than $100,000 and creating further deterrence for illegal 
fishing activities. Thus far, the Sea Grant research team has fully 
developed and tested DNA markers for 18 U.S. Atlantic shark species.
    Recognizing the demand for fisheries extension services and the 
complexity of fisheries issues, the National Sea Grant Office and 
NOAA's National Marine Fisheries Service (NMFS) were asked by Congress 
to develop a program to improve communications with and among fisheries 
constituents. The partnership between Sea Grant and NMFS was enhanced 
by developing a regionally-coordinated, constituent-based fisheries 
extension program. The initial Sea Grant investment of $5 million led 
to:

        <bullet>  a partnership between NMFS and the U.S. Fish and 
        Wildlife Service to reduce seabird bycatch in the Bering Sea 
        and Gulf of Alaska, an activity that led to new fishing 
        regulations and circumvented potential lawsuits that might have 
        shut down a $200 million fishery;

        <bullet>  the Eliminator Trawl designed to catch underutilized 
        haddock, likely resulting in economic gains of $30 million--a 
        design for which Rhode Island Sea Grant extension agents were 
        awarded the grand prize in the 2007 World Wildlife Federation's 
        International Smart Gear Competition; and

        <bullet>  a partnership between the National Marine Fisheries 
        Service Southeast Fisheries Center and Sea Grant extension 
        agents to deliver training programs and to distribute 1,000 
        bycatch reduction devices to fishermen in the Gulf of Mexico.

    This list of just some examples of accomplishments demonstrates 
many of the Sea Grant capabilities that have earned it a reputation as 
a highly effective national program.

Future of Sea Grant

National Strategic Planning
    Sea Grant is currently completing its national strategic planning 
process for 2009 to 2013. This five-year strategic plan establishes 
direction for the Sea Grant network to address critical national needs 
in coastal, ocean and Great Lakes environments. The plan capitalizes on 
Sea Grant's unique capacities and strengths, allows for flexibility and 
creativity on the part of State Sea Grant programs, and supports a 
broad range of priorities in NOAA's strategic plan, and NOAA's 20-Year 
Research Vision and Five-Year Research Plan.
    Over the next five years, Sea Grant will concentrate effort in four 
focus areas: healthy coastal ecosystems, sustainable coastal 
development, a safe and sustainable seafood supply, and hazard 
resilience in coastal communities. These four interrelated focus areas 
emerged from diverse stakeholder input, including advice from the Sea 
Grant Review Panel, during the strategic planning process as areas of 
critical importance to the health and vitality of the Nation's coastal 
resources and communities. These areas reflect issues of major 
importance to NOAA and are areas in which Sea Grant has made 
substantial contributions in the past and is positioned to make 
contributions in the future. In addition, these focus areas are 
consistent with the work of the NOAA coastal program integration effort 
which is working to improve coordination in the development and 
delivery of services within NOAA's coastal programs.
    Sea Grant's new strategic plan will address timely issues affecting 
coastal regions, including issues related to climate change, coastal 
hazards and coastal development. Sea Grant's extension staff, with 
diverse backgrounds and coastal specialties, will play a critical role 
in identifying local needs for climate research and information. Sea 
Grant extension staff can serve as intermediaries between NOAA's 
climate researchers and coastal decision-makers, helping to define and 
deliver NOAA's climate tools and products that are needed at the local 
level. In this way, Sea Grant's work complements the outreach efforts 
of other NOAA programs, such as the National Integrated Drought 
Information System and the Regional Integrated Sciences and Assessments 
program, with Sea Grant maintaining a specific focus on coastal 
communities. Sea Grant is committed to support research and outreach to 
effectively apply innovative techniques to restore degraded ecosystems. 
Also, Sea Grant has recognized the need to invest in research that 
evaluates the environmental and socioeconomic trade-offs involved in 
coastal planning and decision-making.
    Sea Grant is one of many partners working to address these complex 
and interrelated issues. Using partnerships to accomplish shared goals 
is a strategy inherent to Sea Grant and key to its successes.

Regional Plans
    Consistent with the President's U.S. Ocean Action Plan, and the 
recommendations of the U.S. Commission on Ocean Policy, NOAA has 
committed to adopting ecosystem-based approaches to management to 
achieve balance among ecological, environmental and social influences 
in our nation's coastal, ocean and Great Lakes regions. In order to 
advance this effort, regional coordinators of Sea Grant programs are 
facilitating planning efforts to aid in the transition toward regional 
ecosystem-based management. Sea Grant is engaging a wide array of 
stakeholders to develop a ``bottom-up'' needs assessment by identifying 
research and information gaps, developing prioritized management-based 
regional research and information plans, coordinating technology and 
information transfer to appropriate end users, and providing an ongoing 
platform for coordination, collaboration, and resource-sharing among 
participants.
    These regional plans will include clear statements of the major 
regional, ocean and coastal management issues, outlines of existing 
scientific and informational resources, analyses of the information 
necessary to address the critical issues, and a prioritized list of 
actions to be taken. Each final plan will include a prioritized list of 
forecast products that would aid in the transition toward regional 
ecosystem-based management. Eight regions are currently participating 
in this planning process (Gulf of Maine, Great Lakes, Insular Pacific, 
Alaska, Pacific Northwest, Pacific Southwest, Gulf of Mexico, and the 
South Atlantic) and their plans will be completed by the end of FY 
2008. The remaining three regions (New York Bight, Mid-Atlantic and the 
Caribbean) are beginning the process in FY 2008, with plans scheduled 
for completion by the end of FY 2010.
    Although the planning process is not complete, every region has 
identified climate change impacts as a top priority for research, 
including research that refines predictive models to regional and local 
scales, and consideration of socioeconomic and ecological effects. 
Beyond this issue, priorities are as diverse as the different regions' 
geological and ecological signatures. The Insular Pacific region 
prioritizes beach and reef restoration research, in the Great Lakes the 
priority is aquatic invasive species, in the Northeast the priority is 
storm safety, and along the Pacific coast the priority is ocean 
observation systems for better assessing the land-sea connection. Each 
region must include an outreach component in their plan, ensuring 
timely delivery of pertinent technologies and tools to the appropriate 
users.

Sea Grant Reauthorization
    The National Sea Grant College Program Act (Act) was first enacted 
in 1966 and has been amended nine times, most recently in 2002. The 
current reauthorization expires at the end of fiscal year 2008. NOAA is 
supportive of efforts to reauthorize this Act as the National Sea Grant 
College Program has achieved significant accomplishments nationwide in 
promoting research, education, training, and advisory service 
activities that have increased the understanding, assessment, 
development, utilization and conservation of the Nation's ocean, 
coastal and Great Lakes resources.
    The Administration will shortly transmit to Congress proposed 
legislation to reauthorize the National Sea Grant College Program. In 
preparing the proposed legislation, the National Sea Grant Office 
reviewed the program's successes and the challenges encountered since 
the program's last reauthorization in 2002. The resulting 
Administration bill proposes changes to advance Sea Grant's capability 
to address regional and national issues, enhance NOAA's ability to 
administer and provide guidance to the Sea Grant program, and redefine 
the role of the National Sea Grant Review Panel.
    The Administration's reauthorization bill and National Sea Grant 
College Program Amendments Act of 2008 (H.R. 5618) in many instances 
take similar approaches to strengthening the Sea Grant program.
    Both bills promote continued Sea Grant program investment in 
national activities by increasing the non-match funding pool. 
Specifically, the Administration bill proposes increasing the non-match 
funding pool from 1 percent to five percent, including the Knauss 
Fellowship Program.
    This proposed change will enhance the quality of the Sea Grant 
network by allowing the Sea Grant program to enhance its support for 
national facilities such as the Sea Grant Law Center, and enhance its 
ability to respond rapidly to emerging issues, such as recovery from a 
hurricane, at the local and regional level.
    Both bills promote greater partnership opportunities among State 
Sea Grant programs by adjusting the current requirements for how the 
State programs are evaluated. In the last reauthorization (2002) a 
requirement was added that State programs be ranked based on their 
relative performance and any new funding for existing programs be 
awarded based on those rankings. While the intent was to provide a 
competitive opportunity for individual programs to receive additional 
funding based on merit, the National Research Council's 2006 report, 
``Evaluation of the Sea Grant Program Review Process,'' pointed out 
that as an unintended consequence the 2002 amendment also created a 
financial disincentive for programs to work cooperatively and to form 
regional partnerships with each other. The Administration's bill and 
H.R. 5618 both remove the requirement to rate programs within five 
categories of performance. Both bills retain the requirement to 
evaluate and assess the performance of State Sea Grant programs, but 
remove the relative ranking requirement in order to facilitate the 
development of regional collaborations among the Sea Grant programs.
    Both bills seek to strengthen the Sea Grant program by elevating 
the role and functions of the National Sea Grant Review Panel. The 
National Sea Grant Review Panel (Panel) was established in 1976 to 
provide advice on all applications submitted to Sea Grant for funding, 
on the Sea Grant fellowship program, on the designation and operation 
of Sea Grant colleges and on the development and application of 
planning guidelines and priorities. Over the past 30 years, the role of 
the Panel has evolved in consonance with the evolution of Sea Grant's 
influence and effectiveness. The Panel no longer reviews funding or 
fellowship applications and the designation of new Sea Grant colleges 
happens rarely as the Sea Grant network of colleges in our coastal and 
Great Lakes states is virtually complete. The 2006 National Research 
Council report called for the Panel to be ``better positioned to 
comment on issues of broader significance to the overall program,'' and 
stated the Panel's sole function should be ``to promote the 
effectiveness of the program as a whole.'' Both bills propose changes 
that focus the duties of the Panel on providing strategic advice 
regarding the national program, as well as providing assessment of the 
overall effectiveness of the program. These proposed changes will 
better enable the Panel to address the needs of the program as it has 
evolved since 1976.
    The Administration's proposed reauthorization bill and H.R. 5618 do 
differ on the issue of the size of the cap on administrative funding 
and on the matching funding requirement with regards to regional and 
national partnerships.
    The Administration bill advances Sea Grant's capacity for regional 
and national leadership by adjusting the cap on administrative funding, 
while H.R. 5618 does not make any adjustments to the cap. Specifically, 
the Administration bill proposes increasing the administrative cap from 
five percent to seven percent. Staffing in NOAA's National Sea Grant 
Office (NSGO) is about half what it was 15 years ago despite the 
expansion of the network of Sea Grant Programs. The 2006 National 
Research Council report found that ``the NSGO does not currently play a 
sufficient role in ongoing program assistance, monitoring, 
communication, and assessment'' and recommended that the Secretary of 
Commerce ``take steps to ensure that sufficient human and fiscal 
resources are available to allow robust, ongoing and meaningful 
interaction'' among the NSGO, the State programs, and their home 
institutions. By increasing the resources available to NOAA for 
administration of the Sea Grant Program, the Administration's bill 
would allow for approximately eight to ten additional full time 
employees to be hired at the NSGO. The increase in staffing for the 
NSGO would strengthen the core of the entire Sea Grant network by 
allowing us to: more quickly process, review and approve programs' 
omnibus and other program grant applications; increase NOAA's 
participation in State program strategic and annual planning processes; 
enhance program oversight and evaluation; and improve communication and 
collaboration among Sea Grant, other NOAA programs, and other federal 
agencies and non-governmental organizations.
    Both the Administration's bill and H.R. 5618 seek to promote Sea 
Grant's involvement in regional and national partnerships. However, the 
Administration's bill specifically proposes exempting regional and 
national partnerships, as well as interagency cooperation, from the 
matching funding requirement as a means to achieve the goal of greater 
Sea Grant involvement in these activities. Sea Grant programs currently 
form regional and national partnerships in a limited capacity due to 
constraints of the matching requirement. We recognize the significance 
of the matching requirement, as it ensures we leverage significant 
funds from each federal dollar that is invested; however, the 
requirement has, at times, made it difficult to form regional and 
national partnerships and interagency collaborations. This change would 
enhance the ability of the State programs to form effective and lasting 
strategic partnerships. Currently, Sea Grant cannot provide significant 
funding to potential partners without match. This becomes an obstacle 
to forming partnerships when potential partners (i.e., local and State 
agencies, private partners) do not have matching funds available. By 
exempting these activities from the matching requirement, Sea Grant 
programs would be able to collaborate with a broader array of partners 
to address issues such climate change impacts on coastal communities 
and ecosystems, sustainable development, fisheries, hazard resilience, 
and invasive species--issues that are best addressed regionally and 
nationally.
    In general, the Administration's proposed reauthorization bill and 
H.R. 5618 have more similarities than differences. The reauthorization 
of Sea Grant is important to NOAA as we continue to understand, assess, 
develop, utilize and conserve our coastal and Great Lakes resources. We 
look forward to working with the Subcommittee on Energy and Environment 
as the legislation moves through Congress.

Conclusion

    In summary, Sea Grant is working to realize its vision for a future 
where people live along our coasts in harmony with the natural 
resources that attracted and continue to sustain them. This is a vision 
of our nation's coasts in which we use our natural resources in ways 
that capture the economic and recreational benefits they offer, while 
preserving their quality and abundance for future generations. This 
work allows Sea Grant to serve NOAA's mission goal to protect, restore 
and manage the use of coastal and ocean resources effectively.
    Sea Grant has demonstrated an ability to leverage resources and 
engage issues in partnership with other entities; this program has 
proven itself to be an effective investment of taxpayer dollars. 
Looking ahead, the Sea Grant network of universities provides a 
national infrastructure with the ability to adapt and respond to 
emerging issues. I look forward to working with you to ensure that the 
National Sea Grant College Program continues to generate practical 
solutions to real problems in real places.
    Thank you for inviting me to testify on the National Sea Grant 
College Program. I thank you also for your interest in and support of 
NOAA's National Sea Grant College Program.

                     Biography for Craig N. McLean
    Craig McLean is the Deputy for NOAA's Oceanic and Atmospheric 
Research Programs and Administration. He is responsible for daily 
operations and administration of NOAA's research enterprise, and the 
execution of NOAA programs including the Climate program, National Sea 
Grant, and Ocean Exploration.
    He has previously served in NOAA as Executive Officer of the 
National Ocean Service, and was the founding Director of NOAA's Office 
of Ocean Exploration. McLean served in uniform for nearly 25 years, 
retiring from NOAA's Commissioned Corps in the grade of Captain after 
service at sea, underwater, and in operational, legal, and marine 
resource management positions. McLean served aboard hydrographic, 
oceanographic, and fisheries research ships and was the first 
commanding officer of NOAA's largest fisheries research vessel, the 
224-foot Gordon Gunter.
    A life-long diver, he began exploring deep shipwrecks through 
decompression diving while in junior high school. These experiences 
have taken him to the Amazon River searching for freshwater dolphins, 
and to the RMS Titanic searching for solutions in shipwreck management.
    Craig McLean is also an attorney and has practiced marine resource 
law for NOAA. He has been awarded the Departmental Silver and Bronze 
Medals, the NOAA Corps Commendation Medal, Special Achievement Medal, 
and recognized as the NOAA 2005 Senior Leader of the Year. He is a 
Fellow in the Explorers Club, Chairman of the Marine Law and Policy 
Committee of the Marine Technology Society, and is Chairman of the 
Board of the Sea-Space Symposium.

    Chairman Lampson. Thank you, Mr. McLean.
    Mr. Anderson, five minutes.

    STATEMENT OF MR. PAUL S. ANDERSON, PRESIDENT, SEA GRANT 
     ASSOCIATION; DIRECTOR, MAINE SEA GRANT COLLEGE PROGRAM

    Mr. Anderson. Good morning, Chairman Lampson, Ranking 
Member Inglis and Committee Members. My name is Paul Anderson. 
I am the Director of the Maine Sea Grant College Program at the 
University of Maine and I appear today on behalf of the Sea 
Grant Association in my capacity as president to offer our 
perspective on H.R. 5618.
    It is an honor to represent the nationwide network of Sea 
Grant colleges at this hearing, and it is with great 
appreciation that we acknowledge your leadership and the 
Subcommittee's long history of support for the National Sea 
Grant College Program.
    I have a formal statement that I ask to be included in the 
record for this hearing. The SGA, Sea Grant Association, 
represents the combined capabilities of over 300 university and 
research institutions nationwide in the National Sea Grant 
College Program. The SGA enables these institutions to 
coordinate their activities and to prioritize action at the 
regional and national levels and offers a unified voice on 
critical coastal ocean and Great Lakes issues.
    Just as our nation's land grant institutions have 
revolutionized agriculture, so too are the Sea Grant colleges 
steering our nation toward the productive and sustainable use 
of our coastal ocean and Great Lakes resources through 
integrated and competitive programs of scientific research, 
education, training and technical assistance.
    I want to start by providing an example, if I might, from 
my home State of Maine on how the Sea Grant program has 
significantly contributed towards a sustainable environment and 
economy. I think you might find this story interesting. Like 
many of our coastal states, Maine is a seafood producing state, 
and with both wild capture and cultured fish and shellfish. 
Also like many coastal states, Maine is a popular destination 
for visitors with a significant tourism industry. The Sea Grant 
program has been working nationally with these two very large 
economic sectors to ensure compatibility and economic success 
for both.
    There are, however, challenges between these sectors and 
conflicts between them, and I would like to tell you about an 
innovative solution to a conflict between the recreational 
boating or sailing community, and part of the Maine industry 
that wants to grow blue mussels. You have all enjoyed blue 
mussels perhaps on your dinner plate. When this grower proposed 
to put his growing operation, a floating raft structure, in the 
vicinity of where the boating community does much of their 
sailing, they called Sea Grant because it was an issue. We 
brought the conflicting parties together along with a 
mechanical engineer from the University and we helped to 
develop a device that allows the raft structure to sink below 
the water level on demand and then, with the push of a button, 
to return the structure to the surface and harvest and maintain 
the operation, out of sight, out of mind, so to speak. Much 
like your garage door opener, the device now has a patent 
pending and the periodic regattas in that area continue. This 
is just one example of how Sea Grant operates as an honest 
broker, bringing together varying needs and perspectives and 
applying science and creativity to identify collaborative 
solutions to complex problems.
    It is an unrealized potential of Sea Grant, as illustrated 
by this example, that provides the context for our comments on 
H.R. 5618. The SGA strongly endorses the intent and many of the 
proposed changes contained in H.R. 5618, and we pledge to do 
our part to help towards the bill's enactment.
    First, we support the adjustments offered in H.R. 5618 
regarding program ranking and performance assessment and 
response to the NRC, the National Research Council's report 
that you just heard about. We are also pleased with the bill's 
emphasis on regional collaboration. We are particularly pleased 
to see that the bill provides enhanced flexibility in the 
allocation and overall management of resources within the 
program and which will allow for both program stability and our 
responsiveness. I think it is the responsiveness that is really 
something that is particularly keen with the Sea Grant program. 
And we strongly support the language of the Sea Grant planning 
and priority-setting process to the interagency Ocean Research 
Priorities Plan, as was also just described.
    However, we do have one concern and that is the 
authorization level that is contained in H.R. 5618. It 
represents a significant reduction, perhaps up to 33 percent 
compared to Sea Grant's fiscal year 2008, or current, 
authorization levels. Funding for the Sea Grant program has not 
kept pace, as you mentioned earlier, Mr. Chairman, with the 
extraordinary growth in coastal population and development and 
the resulting increasing demands on our programming. At the 
current fiscal year 2009 level proposed by the Administration 
for the Sea Grant program, we would be asked to operate at its 
lowest level in a 42-year history. So I said all that to say 
that we do feel that these declining trends in appropriations 
would be exacerbated by a parallel reduction in our 
authorization levels and we hope the Committee will consider 
that.
    We recommend--the SGA recommends that the National Sea 
Grant College Program be reauthorized at levels that would grow 
to $125 million by the year 2014. With this, Sea Grant would be 
better positioned to address a number of critical coastal 
issues including coastal hazard resiliency, sustainable coastal 
development, the health of our coastal ecosystems and 
sustainable seafood. These are the four focus areas of our 
current and future strategic plan.
    To conclude, Chairman and Members of the Subcommittee, the 
Sea Grant Association has a vision for the Sea Grant College 
Program to become NOAA's primary university-based research, 
education and technical assistance program in support of marine 
resource management and conservation. We believe that H.R. 5618 
moves Sea Grant in that direction and we are supportive of the 
bill in many ways and will work to support its enactment.
    Thank you for your time today, and I would be glad to 
answer any questions.
    [The prepared statement of Mr. Anderson follows:]
                 Prepared Statement of Paul S. Anderson

Mr. Chairman and Members of the Subcommittee:

    My name is Paul Anderson. I am the Director of the Maine Sea Grant 
College Program in Orono, Maine; but I appear today as President of the 
Sea Grant Association (SGA).
    It is an honor to represent the nationwide network of Sea Grant 
professionals at this hearing, and it is with great appreciation that 
we--all of us in the Sea Grant Association--acknowledge this 
subcommittee's long history of support for the National Sea Grant 
College Program. Thank you for the opportunity to express these views 
regarding to the reauthorization of the National Sea Grant College 
Program.
    The Sea Grant Association (SGA) represents the combined 
capabilities of over 300 university and research institutions 
nationwide that participate in the National Sea Grant College Program. 
The SGA enables these institutions to coordinate their activities, to 
prioritize action at the regional and national levels, and to offer a 
unified voice on critical coastal, ocean, and Great Lakes issues. Just 
as our nation's Land Grant institutions have revolutionized 
agriculture, so too are the Sea Grant Colleges steering our nation 
toward the productive and sustainable use of our coastal, oceanic, and 
Great Lakes resources through integrated and competitive programs of 
scientific research, education, training, and technical assistance.
    The National Sea Grant College Program (Sea Grant) was last 
reauthorized six years ago, after extensive review and with 
overwhelming support by both Houses of Congress, through the National 
Sea Grant College Program Amendments Act of 2002 (P.L. 107-299).
    The SGA strongly endorses the intent and many of the proposed 
changes contained within the Sea Grant reauthorization bill that is 
currently being considered before this subcommittee, the National Sea 
Grant College Program Amendments Act of 2008 (H.R. 5618). Over the last 
several months, the SGA and members of the National Sea Grant Review 
Panel have discussed many of the issues associated with 
reauthorization. As a result of that process, we reached a substantial 
amount of consensus and we are pleased that much of that consensus is 
reflected in H.R. 5618.
    We specifically support the way the bill addresses the following 
issues:

        <bullet>  Adjustments in the rating and ranking process which 
        were part of the last reauthorization bill;

        <bullet>  Additional emphasis on regional collaboration;

        <bullet>  Enhanced flexibility in the management and resource 
        allocations within the program;

        <bullet>  Strengthening of the review process consistent with 
        the recommendations made by the National Academy of Sciences; 
        and

        <bullet>  Linkage of the Sea Grant strategic planning and 
        priority setting process to the overarching interagency ocean 
        research priorities and implementation plan\1\ released in 
        January 2007 by the Joint Subcommittee on Ocean Science and 
        Technology.
---------------------------------------------------------------------------
    \1\ Charting the Course for Ocean Science in the United States for 
the Next Decade: An Ocean Research Priorities Plan and Implementation 
Strategy, NSTC Joint Subcommittee on Ocean Science and Technology, 
January, 2007.

    However, we are concerned that the authorization levels contained 
in H.R. 5618 represent a significant reduction (of more than 33 
percent) compared to the authorization levels included in current law 
for fiscal year 2008 (P.L. 107-299), and fall short of what is needed 
to address the ever-increasing needs and opportunities that our 
nation's coastal, ocean, and Great Lakes resources present. Several 
coastal regions under U.S. jurisdiction have limited or no Sea Grant 
program coverage at present, and there are significant stretches of the 
U.S. coastline that receive little or no attention from our on-the-
ground Sea Grant Extension network of agents and specialists. 
Additionally, existing coastal and Great Lakes Sea Grant programs 
receive many more high quality and user-driven projects than they can 
fund.
    Therefore, we would like to offer our perspective on the funding 
needs for this important national program. The SGA recommends that the 
National Sea Grant College Program be reauthorized at a level of 
funding that grows to $125 million by FY 2014. This will enable Sea 
Grant to support a robust, competitive, merit-based research program 
tied to extension, communication, and education in which science-based 
information is used to address societal problems and opportunities as 
they relate to management, conservation, and sustainable use of our 
coastal, marine, and Great Lakes resources.

The Public Policy Context for Ocean and Coastal Issues

    The interface between science and policy is precisely where the Sea 
Grant program applies its precious resources. As the program makes 
decisions on funding of research and outreach projects, issues that are 
acutely important to Sea Grant's local, regional, and national 
constituencies receive priority attention. Extension and educational 
resources are deployed in ways that enhance the relevance and impact of 
the science and discoveries that result from Sea Grant-funded research.
    There is a growing demand from our diverse network of stakeholders, 
resource managers, and decision-makers for scientifically-sound 
information upon which sound decisions addressing many of today's 
complex problems can be made. Sea Grant's integrated science and 
outreach approach incorporates up-to-date and ongoing dialogue with its 
constituencies to identify the most important and timely issues of 
national importance facing our communities, states and regions. 
Technological and scientific approaches, though desirable, cannot solve 
all of society's problems, and Sea Grant's ability to embed itself 
within the communities it serves enables the program to interact 
directly with people who live, work, and play along our nation's 
coastal regions, thereby ensuring that the utility and impact of 
investments made by the Sea Grant program are relevant and significant. 
Sea Grant's work is always fresh. Although the program has been in 
place for more than 40 years, Sea Grant's constant attention to 
societal needs through stakeholder interactions allows it to be nimble 
and responsive, while also maintaining the rigor and reliability of a 
strategic enterprise.
    An increased investment in Sea Grant is an investment in America's 
economic future. Attempts to balance our booming coastal economy with 
its associated impacts on the coastal and marine environment upon which 
it depends have raised the stakes for effective government action. The 
coastal regions of the United States contribute more than 50 percent of 
the Nation's Gross Domestic Product (GDP), according to a recent study 
by the Federal Reserve. The oceans, in one way or another, account for 
one out of every six jobs nationwide. Tax revenues in coastal areas are 
among the fastest growing revenue sources for State and local 
governments. In fact, the collective economic impact of the coastal 
economy far exceeds U.S. agriculture, and yet federal investments in 
Sea Grant colleges and universities are an order of magnitude smaller 
than investments in the Land Grant college and university system funded 
by the U.S. Department of Agriculture for land-based activities, the 
program on which Sea Grant was modeled.
    In more recent years, the work of two major national commissions\2\ 
have brought into focus the importance of our oceans and coasts to our 
nation's natural heritage, security, and economy. With an offshore 
ocean jurisdiction larger than the total land mass of the United 
States, U.S. waters support rich and diverse systems of ocean life, 
provide a protective buffer, and support important commerce, trade, 
energy, and mineral resources.
---------------------------------------------------------------------------
    \2\ An Ocean Blueprint for the 21st Century, U.S. Commission on 
Ocean Policy, April 20, 2004; America's Living Oceans: Charting a 
Course for Sea Change, Pew Oceans Commission, June 2, 2003.

        <bullet>  More than $1 trillion, or one-tenth, of the Nation's 
        annual GDP is generated within near-shore areas, the relatively 
        narrow strip of land immediately adjacent to the coast. Looking 
        at all coastal watershed counties, the contribution swells to 
---------------------------------------------------------------------------
        over $6.1 trillion, more than half of the Nation's GDP;

        <bullet>  In 2003, ocean-related economic activity contributed 
        more than $119 billion to American prosperity and supported 
        over 2.2 million jobs. Roughly three-quarters of the jobs and 
        half the economic value were produced by ocean-related tourism 
        and recreation. More than 13 million jobs are related to trade 
        transported by the network of inland waterways and ports that 
        support U.S. waterborne commerce;

        <bullet>  Annually, the Nation's ports handle more than $700 
        billion in goods, and the cruise industry and its passengers 
        account for $11 billion in spending;

        <bullet>  The commercial fishing industry's total value exceeds 
        $28 billion annually, with the recreational saltwater fishing 
        industry valued at around $20 billion, and the annual U.S. 
        retail trade in ornamental fish worth another $3 billion; and

        <bullet>  Nationwide retail expenditures on recreational 
        boating exceeded $30 billion in 2002.

Sea Grant's Place in the Public Policy Context

    Sea Grant is an important federal program that assists decision-
makers in addressing these increasingly pressing issues. Sea Grant is a 
productive and effective federal-State-university partnership which 
supports competitive, merit-based, and integrated research, education, 
and extension programs at many of our nation's outstanding university 
and research institutions. Over 300 institutions and more than 3,000 
scientists, engineers, educators, students, and outreach experts 
participate in the program each year. Sea Grant provides its 
constituents with relevant science-based information and technical 
assistance that addresses ocean, coastal, and Great Lakes resource 
issues and opportunities of national significance at the national, 
regional, State, and local levels. Sea Grant thus supports the mission 
of its parent agency--the National Oceanic and Atmospheric 
Administration (NOAA)--as well as the needs of ocean, coastal and Great 
Lakes communities, with an overall goal of fostering economic and 
environmental sustainability on a national level.
    This successful partnership program, in which the federal 
contribution is matched with non-federal resources on a two to one 
basis, relies on stakeholder engagement to ensure that Sea Grant 
resources are deployed strategically and that outcomes are relevant. 
Sea Grant emphasizes the application of objective, science-based 
information and collaborative problem-solving to address complex 
societal issues. I have attached a list of users, stakeholders, and 
beneficiaries that attest to the value of the products and services 
produced via the Sea Grant program.

Sea Grant Is Under Budgetary Stress

    The growth of the National Sea Grant College Program has not been 
commensurate with the extraordinary growth in coastal population and 
development, and the concomitant increase in demands for Sea Grant 
program services by our coastal constituents. In fact, the Sea Grant 
budget has not kept pace with inflation over the last two decades, much 
less expanded to meet the wealth of new challenges and opportunities 
that face our country.
    The FY 2008 budget for the Sea Grant program is $57.1 million. The 
Administration's budget request for FY 2009 would reduce this national 
program to $54.997 million--a four percent reduction at a time when the 
NOAA budget as a whole is proposed to grow by five percent. At the 
level proposed by the Administration, the Sea Grant program would be 
asked to operate at its lowest level in its 42-year history in real 
terms (see the following chart). Sea Grant's appropriations are over 20 
percent below the buying power of its 1980 level and we have seen staff 
reductions on the order of 25 percent.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This decline in federal support has had serious ramifications for 
the Sea Grant program. At present, only about 12 percent of the 
proposals submitted to the Sea Grant program can be funded due to 
resource constraints. In contrast, the success rate for proposal 
support at the National Science Foundation is just over 20 percent. Sea 
Grant directors estimate that they have enough high quality meritorious 
proposals--of importance to the program's mission and relevant to 
stakeholder needs--to fund 25 percent of the proposals submitted.
    Currently, about $30 million of Sea Grant's $57.1 million budget is 
used to support research. The research portion of the Sea Grant program 
budget could easily and justifiably be doubled to between $60 million 
to $80 million annually to support important research efforts that 
currently go unfunded to generate answers to the many questions and 
provide new knowledge and technologies needed by ocean and coastal 
resource decision-makers, business and industry, and coastal 
communities.
    The balance of the Sea Grant budget supports the program's 
extension, education, and outreach efforts. The uniqueness and success 
of the Sea Grant program is based on its ability to integrate its 
research, education, and extension efforts, ensuring that research 
results are intimately tied to the needs of our citizens. The current 
level of expenditure for extension, communication, and education in the 
Sea Grant program is approximately $25 million. A recent report of the 
NOAA Science Advisory Board\3\ called on NOAA to substantially expand 
its extension, outreach, and education activities. Sea Grant has the 
experience and the ``on-the-ground'' network to fulfill that policy 
recommendation immediately if sufficient additional budget support from 
NOAA was forthcoming. As Sea Grant's research program expands to meet 
increasing demands, so too must the tools that put these research 
results in the hands of stakeholders so that they can be utilized. The 
Sea Grant extension, communication, and education function should 
therefore likewise be increased commensurate with increased research 
funding to between $40 million to $50 million to maintain this critical 
balance of Sea Grant program support.
---------------------------------------------------------------------------
    \3\ Engaging NOAA's Constituents: A Report from the NOAA Science 
Advisory Board, March 2008.

Sea Grant's Alignment with Federal Interagency Ocean Research 
                    Priorities

    Another justification for increased federal support for Sea Grant's 
core functions relate to the recommendations put forth in recent ocean, 
coastal, and Great Lakes policy and planning activities in NOAA and 
other federal agencies. In January 2007, the Federal Government 
released its interagency ocean research priorities plan, titled 
Charting the Course for Ocean Science in the United States for the Next 
Decade: An Ocean Research Priorities Plan and Implementation Strategy. 
That document lays out the key priorities for interagency ocean 
research over the next ten years. Priorities identified in that report 
include:

        <bullet>  Stewardship of Natural and Cultural Ocean Resources--
        which includes efforts involving sustainable resources, such as 
        fisheries and alternative energy sources, and non-renewable 
        resources, such as fossil fuels and minerals;

        <bullet>  Increasing Coastal Community Resilience to Natural 
        Hazards--including research and education into causes, impacts, 
        and the adaptation and mitigation from natural physical 
        hazards, such as hurricanes and tsunamis, community and 
        ecosystem vulnerability, and hazard mitigation;

        <bullet>  Enabling Marine Operations--which includes efforts to 
        determine the impacts of marine operations, including 
        transportation, energy exploration and development, and 
        aquaculture, on the environment; and the impacts of the 
        environment on marine operations;

        <bullet>  The Ocean's Role in Climate--to examine the impact of 
        climate change on our ocean and coastal regions, understanding 
        changes and impacts on ecosystems particularly on a regional 
        basis so as to better prepare national, State, local, and 
        regional decision-makers to adapt and mitigate to regional 
        climate change challenges;

        <bullet>  Improving Ecosystem Health--which examines natural 
        and human-induced changes and impacts to ecosystems and methods 
        to monitor and address impacts; and

        <bullet>  Enhancing Human Health--which is a focus on efforts 
        to identify and assess ocean-related risks to human health and 
        identify and develop ocean products for human well-being.

    Common among these themes is the need to develop tools necessary to 
pursue research and to effectively translate the results of that 
research in ways that are useful to resource managers, policy-makers, 
and the general public. Society's ability to fully develop the 
understanding needed to address key ocean and coastal-related issues 
and to apply existing understanding to support meaningful decision-
making and ocean literacy depends on the generation of science-based 
information, development of technology, and continued intellectual 
innovation--three key functions of the Sea Grant program.
    Consistent with the overarching interagency ocean research 
priorities report and as a result of its on-going strategic planning 
process, Sea Grant has honed its strategic programmatic efforts to 
emphasize the following focus areas in the coming years:

        <bullet>  Sustainable Coastal Development--Decades of 
        population migration to the coast have transformed our coastal 
        landscapes and greatly intensified demand on finite coastal 
        resources. New housing developments, recreation facilities, 
        energy development activities, port expansions and other 
        business activities are bringing more people, jobs and 
        recreational opportunities to coastal communities. They are 
        also increasing the pressure on coastal lands, water supply, 
        traditional coastal businesses, and on the coastal culture and 
        way of life. To accommodate more people and activity and 
        resolve the growing number of conflicts, we must develop new 
        policies and management approaches to balance the conservation 
        and use of coastal, ocean and Great Lakes resources. Sea 
        Grant's well-established role as an honest broker and source of 
        unbiased information make it a key player in responding to the 
        needs for sound information identified by decision-makers, for 
        convening stakeholders to seek common ground, and for 
        facilitating the development and implementation of new coastal 
        policies, plans, management approaches, and conflict resolution 
        strategies related to sustainable coastal and economic 
        development.

        <bullet>  Healthy Coastal Ecosystems--Intensified development 
        along the coast and related human activities are leading to 
        water quality degradation, wetlands loss, invasive species, and 
        a host of other challenges that need to be understood and 
        addressed in order to restore and maintain healthy ecosystems 
        that are the foundation for quality-of-life of our citizens and 
        for economic development along the Nation's coasts. Ecosystem-
        based management, reduction and mitigation of anthropogenic 
        impacts, protection of critical areas, and regional habitat 
        restoration are some of the avenues that must be addressed to 
        meet these challenges. Sea Grant's research, education and 
        outreach initiatives can continue to play a major role in 
        building our understanding of how these natural systems 
        function, in advancing regional problem solving, and in 
        supporting resource managers and decision-makers at all levels 
        of government in moving toward an ecosystem-based approach to 
        managing coastal, ocean and Great Lakes resources.

        <bullet>  Coastal Hazard Resiliency--Global warming, sea level 
        rise, increased number and intensity of coastal storms, and 
        other climate- and weather-related phenomena are putting more 
        people and property at risk along the Nation's coasts with 
        major implications for human safety, ecosystem health, and the 
        economic vitality of our coastal communities. It is essential 
        that residents and leaders in coastal communities understand 
        these risks, learn what they can do to reduce their 
        vulnerability, and respond quickly and effectively to these 
        events. Sea Grant--with its strong research, education, and 
        outreach capacity--can play a major role in developing tools 
        and technologies for disaster resiliency and in assisting local 
        citizens, decision-makers, and businesses plan, prepare, 
        respond, and rebuild in the face of these short- and long-term 
        hazards events.

        <bullet>  Sustainable Safe Seafood Supply--The U.S. has 
        witnessed the decline of many of its major fisheries at the 
        same time that seafood consumption is on the rise, resulting in 
        a seafood trade deficit of about $9 billion a year. Over-
        fishing, habitat degradation, and increasing competition among 
        coastal users have put our nation's fishing industry in great 
        jeopardy. Seafood safety is a growing concern as international 
        trade increases and fish diseases and contamination become 
        bigger problems. Aquaculture is opening up new opportunities to 
        meet the growing domestic seafood demand, but it must be 
        conducted in a sustainable and economically viable manner in 
        order for its full potential to be realized. Sea Grant 
        continues to play a key role in advancing our understanding of 
        the nature of these problems and opportunities and in employing 
        its research, education, and extension capabilities to support 
        informed public and private decision-making and resource 
        management activities that will lead to an enhanced, 
        sustainable supply of safe seafood into the future.

Conclusion--Enhanced Federal Funding for Sea Grant is Justified

    Mr. Chairman and Members of the Subcommittee, the Sea Grant 
Association has a vision for the National Sea Grant College Program, to 
become NOAA's primary university-based research, education, extension 
and outreach, and technical assistance program for coastal, marine, and 
Great Lakes resources.
    The Sea Grant program--with its excellent track record, its 
distributed network, its objective approach to problem-solving, its 
strong integrity-backed ties to hundreds of stakeholders all across the 
country, its integrated approach that ensures its research efforts are 
tied to serving the needs of national, State, regional, and local 
decision-makers, and a revamped strategic planning and programmatic 
review process--is uniquely positioned to meet the growing needs of the 
Nation in implementing its ocean, coast, and Great Lakes agenda. To do 
so, based on current and emerging requirements we believe it is in the 
national interest to enhance the National Sea Grant College Program to 
a level of $125 million by fiscal year 2014.
    Sea Grant's strategic planning efforts and rigorous program 
evaluation processes foster excellence and accountability. Coupled with 
an updated authorization that reflects and supports the real needs of 
the program, Sea Grant can continue and expand its efforts to address 
an ever-increasing suite of resource issues facing the Nation's coastal 
areas, foster innovative economic development efforts, and educate and 
train the Nation's future coastal, ocean, and Great Lakes workforce.
    We believe that H.R. 5618 moves the Sea Grant program in that 
direction and we are supportive of the bill in many ways and will work 
in support of its enactment. We believe it is important, however, for 
the Congress to provide the National Sea Grant College Program with 
resources necessary to build on the program's record of success and 
promise with a reauthorization of appropriations that matches both the 
immediate and long-term needs of all who live and work along the 
Nation's coastlines, and one that represents the initial step in 
achieving a broader vision for the program as proposed in this 
testimony.
    The SGA looks forward to working with you this year on Sea Grant 
reauthorization. Thank you again for the opportunity to testify on 
behalf of all of the Sea Grant Colleges nationwide. I would be glad to 
address any questions the Subcommittee may have.
    The Sea Grant Association is a non-profit organization dedicated to 
furthering the Sea Grant program concept. The SGA's regular membership 
consists of the institutions that participate in the National Sea Grant 
College Program, located within the National Oceanic and Atmospheric 
Administration (NOAA). SGA provides the mechanism for these 
institutions to coordinate their activities, to set program priorities 
at both the regional and national level, and to provide a unified voice 
for these institutions on issues of importance to the oceans, coasts 
and Great Lakes. The SGA advocates for greater understanding, use, and 
conservation of marine, coastal and Great Lakes resources.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     Biography for Paul S. Anderson
    Paul Anderson is currently the Director and Extension Program 
Leader of the Maine Sea Grant College Program. At Sea Grant, Mr. 
Anderson is both the Director of the Program and leader of the Marine 
Extension Team, a group of 10 Sea Grant and University of Maine 
Cooperative Extension staff members who are based all along the Maine 
coast. Maine Sea Grant's administrative unit is based at the University 
of Maine in Orono, Maine but the extension staff members that Paul 
supervises are located along Maine's coast in various locations.
    Before Paul joined Sea Grant in 1999, he spent 10 years working for 
the Maine Department of Marine Resources, first as the chief 
microbiologist and then as the Director of the Public Health Division. 
He has been involved in all aspects of seafood safety and environmental 
monitoring in both the United States and abroad. In this capacity, he 
has traveled to the Philippines, China and most recently in South 
Africa, Namibia and Angola.
    Paul has had the privilege of holding leadership positions in his 
work in Maine as well as nationally. In 2006, he chaired the Governor's 
Task Force on Marine Aquaculture, and is serving his 5th term as 
President of the Maine Fisherman's Forum. He has participated on many 
other similar activities in Maine with both the public and private 
sector as Chair, convener and facilitator. Mr. Anderson is currently 
serving a two-year term as President of the Sea Grant Association.
    Mr. Anderson holds both B.S. and M.S. degrees in Microbiology from 
the University of Maine. In his free time, Paul enjoys his family 
including his three sons and his wife's three children. When not 
working, Paul enjoys organic gardening, and playing music with his 
friends in Maine.

    Chairman Lampson. Thank you, Mr. Anderson.
    Mr. DeVoe.

 STATEMENT OF MR. M. RICHARD DEVOE, EXECUTIVE DIRECTOR, SOUTH 
                 CAROLINA SEA GRANT CONSORTIUM

    Mr. DeVoe. Chairman Lampson, Ranking Member Inglis, Members 
of the Subcommittee and staff, it is my pleasure to be here 
with you this morning. Good morning. My name is Rick DeVoe. I 
am Executive Director of the South Carolina Sea Grant 
Consortium. I also want to offer my great appreciation to this 
subcommittee and to the Committee in general for the support of 
the Committee for Sea Grant and the National Sea Grant College 
Program. Thank you for the opportunity to be here and express 
my views from a State and regional perspective regarding H.R. 
5618, the reauthorization of the National Sea Grant College 
Program.
    The South Carolina Sea Grant Consortium is one of 31 
university-based Sea Grant programs that work with coastal 
communities, business and industry, educational institutions, 
nonprofits and others to generate and deliver user-driven, 
science-based information on coastal and marine resource 
development, management and conservation throughout the Nation. 
The Consortium in South Carolina consists of eight member 
institutions: The Citadel, Clemson University, Coastal Carolina 
University, the College of Charleston, the Medical University 
of South Carolina, South Carolina Department of Natural 
Resources, the South Carolina State University, which is our 
MSI university in the state, and the University of South 
Carolina. They all provide the scientific and technical 
expertise, facilities and training to address coastal and 
marine resource issues and opportunities in my state and indeed 
region-wide. The Sea Grant program nationally does represent 
more than 300 universities at any one time in engaging them in 
dealing with issues that we face on a day-to-day basis along 
our coasts, oceans and Great Lakes.
    I have been the Consortium's director since 1997. However, 
I have been with South Carolina Sea Grant since 1980 upon 
graduation from the University of Rhode Island. My comments 
today reflect my experience from insights gained through my 
work at the national, regional and State levels. I want to 
start by giving one example of many that I have included in my 
written testimony of Sea Grant's effectiveness in South 
Carolina and in the region and focus on an example from the 
upstate of South Carolina, if I may.
    Recognizing that the influence of the oceans extends well 
inland from the coast and that activities in upland areas can 
have impacts on the coast, the Consortium awarded a small grant 
to the Roper Mountain Science Center in Greenville, South 
Carolina, in the mid-1980s to assemble a touch tank so that 
children in the upstate could become more familiar with sea 
life. According to the Center, this modest investment by Sea 
Grant led ultimately to the development of the marine and 
ecology labs at the Center. In 2006, Roper Mountain Science 
Center had over 90,000 students and over 20,000 attended 
lessons in the natural science building, which houses the two 
labs. And last year, the Consortium supported a grant for 
education presentation equipment needed for lessons in the new 
marine lab. I have attached a letter from the Center to my 
written testimony, that provides additional details about this 
partnership. So my message here is that Sea Grant is a coastal 
and marine program but it certainly does extend its reach well 
inland from the coast and affects a lot of lives and 
activities.
    As a Sea Grant Program Director, I want to state that I 
strongly support the intent and many of the proposed changes 
contained within the National Sea Grant College Program 
Amendments Act of 2008 in H.R. 5618. I am not going to be 
redundant with my colleague to my right but we, again from a 
State and regional perspective, endorse provisions of the bill 
that do make significant modifications to the rating and 
ranking program. This has constrained competition--excuse me--
it has created competition among our programs as opposed to 
fostering program excellence throughout the country. It 
includes provisions that would actually enhance Sea Grant's 
ability to work at a regional level. We do have our footprints 
at the State level but this provides an opportunity for us to 
further formalize regional partnerships in line, for instance, 
with various alliances that have been created around the 
country with governors and the states, in the West Coast, for 
instance, in the Gulf of Mexico and elsewhere.
    It provides an authorization of overall base funding for 
Sea Grant which allows for program flexibility, as Paul 
Anderson had mentioned, and we are now better tied with this 
bill to the priorities of the national level in terms of 
research and outreach for coastal ocean and Great Lakes 
resources.
    I indeed, again from the State level, want to echo our 
concerns about the authorization levels in the bill. They are 
much lower than they are currently and there could be a 
perception that with that reduction in authorization levels 
that there may be less confidence in the program. I would hope 
that we don't think that way and we would like to be able to 
feel that we could obtain those levels actually under the 
current situation, that we might be able to obtain those levels 
in the future.
    I would like to end my presentation with my thoughts on why 
I feel the National Sea Grant College Program is uniquely 
positioned to address many coastal marine challenges and 
opportunities that we face. Sea Grant is by definition a 
federal-State-university partnership. Sea Grant employs 
integrated research, education and extension program that makes 
us unique in the Federal Government. Sea Grant addresses real 
problems and opportunities for real people. We work in response 
to the needs and opportunities that are presented to us. Sea 
Grant works at many geographic scales, and we can do that now 
and we can do that within enhanced support. Sea Grant is seen 
by its constituencies as an honest broker, which allows us to 
get into discussions that otherwise we may not be there and 
help foster decisions and outcomes, and Sea Grant leverages 
significant resources.
    To conclude, I believe that H.R. 5618 moves Sea Grant in 
the right direction. It is important, however, that Sea Grant 
be provided with the resources it needs to meet the ever-
increasing challenges ahead.
    Thank you again for the opportunity to testify, and I will 
be glad to address any questions the Subcommittee may have. 
Thank you.
    [The prepared statement of Mr. DeVoe follows:]
                 Prepared Statement of M. Richard DeVoe

Chairman Lampson, Ranking Member Inglis, and Members of the 
Subcommittee:

    My name is M. Richard DeVoe. I am the Executive Director of the 
South Carolina Sea Grant Consortium. It is an honor to be with you this 
morning, and it is with great appreciation that I and my Sea Grant 
colleagues acknowledge your leadership and this subcommittee's support 
for the National Sea Grant College Program. Thank you for the 
opportunity to express my views, from a State and regional perspective, 
regarding H.R. 5618, the reauthorization of the National Sea Grant 
College Program.
    The S.C. Sea Grant Consortium is one of 31 university-based Sea 
Grant programs that work with coastal communities, business and 
industry, educational institutions, non-profits, and others to generate 
and deliver user-driven, science-based information on coastal and 
marine resource development, management, and conservation to our 
diverse and ever-growing constituencies throughout the Nation. The 
Consortium consists of eight member institutions--The Citadel, Clemson 
University, Coastal Carolina University, College of Charleston, Medical 
University of South Carolina, South Carolina Department of Natural 
Resources, South Carolina State University, and University of South 
Carolina--which provide the scientific and technical expertise, 
facilities, and training to address coastal and marine resource issues 
and opportunities in our state and region.
    I have been the Consortium's Director since 1997; however, I have 
been with S.C. Sea Grant since 1980 upon graduation from the University 
of Rhode Island. I have also been actively involved with the Sea Grant 
network through the Sea Grant Association, having served as its 
President in 2001 and 2002, and as chair of its External Relations 
Committee since 2002. In addition, I currently serve as chair of the 
Board of Directors for the SouthEast Coastal Ocean Observing Regional 
Association (SECOORA), Executive Committee member of the Board on 
Oceans and Atmosphere of the National Association of State Universities 
and Land Grant Colleges (NASULGC), and South Carolina representative on 
the Consortium for Ocean Leadership. At the State level, I am a member 
of the Board of Directors for The Noisette Foundation (Charleston, SC), 
the Slocum-Lunz Foundation, and the Lowcountry Institute (Spring 
Island, SC), and serve as Chair of the S.C. Task Group on Harmful 
Algae. Thus, my comments today reflect my experiences and insights 
gained through my work at the national, regional, and State levels.

Views on H.R. 5618

    As a Sea Grant Program Director, I wish to state that I strongly 
support the intent and many of the proposed changes contained within 
the National Sea Grant College Program Amendments Act of 2008 (H.R. 
5618). I offer the following comments on five provisions of the bill; 
four of which are favorable and one expressing some concern:

1.  Program Evaluation and Assessment

    H.R. 5618 makes significant modifications to the rating and ranking 
process which were added to the Sea Grant statute during the last 
reauthorization in 2002. The requirements in Section 3(B)(1)(A)(ii) of 
the National Sea Grant College Program Act Amendments of 2002 (P.L. 
107-299) have inadvertently resulted in the discouragement of 
collaboration and reduction in sharing of ``best practices'' among and 
between State Sea Grant College programs. These requirements were 
initially developed to further the competitive process, but in 
practice, they have placed the State Sea Grant programs at odds with 
one another at a time when collaboration and partnering, particularly 
on a regional scale, is ever more important and necessary. Stipulating 
that no more than 25 percent of the programs can be ranked within the 
top two performance categories is counter-productive to Sea Grant's 
goal of maintaining highest performance for all Sea Grant College 
programs, as well as to enhance the sharing of ``best practices.''
    H.R. 5618 replaces these requirements. It is important that the Sea 
Grant Colleges function as a nationwide network--with strong 
encouragement for sharing best practices, research and management 
results, and outreach and extension activities. I support the intent of 
this bill in its endorsement of the recommendations made by the 
National Academy of Sciences to strengthen and link the strategic 
planning process of Sea Grant College programs and the Sea Grant 
program evaluation process. I believe the new evaluation system under 
development by NOAA with the Office of Oceanic and Atmospheric Research 
and the National Sea Grant Office, which will rate the Sea Grant 
College programs against a set of standard metrics and not against one 
another, will result in improved individual Sea Grant College program 
performance and regional collaboration and enhanced information sharing 
among programs. This will translate into more effective and efficient 
delivery of services and products to Sea Grant's stakeholders and the 
Nation's citizenry.

2.  Enhancement of Regional Efforts

    H.R. 5618 includes provisions that would complement Sea Grant's 
traditional role at the State and local levels with regional efforts. 
While many of the issues facing our coastal communities can only be 
addressed with grass-roots efforts, emerging issues related to climate 
change, sea level rise, ecosystem-based management of living marine 
resources, alternative ocean energy development (wind, wave, and 
currents), among others cry out for a significant investment in 
integrated regional programs to develop the information base necessary 
to inform decision-making, enhance economic growth, conserve living and 
non-living resources, and enhance public awareness. Sea Grant is well-
positioned and organized to assume this challenge. It has already 
invested in the development of regional ocean and coastal research 
plans across the country, bringing stakeholders to the table to 
identify priority needs, and using the interagency Ocean Research 
Priorities Plan and Implementation Strategy (National Science and 
Technology Council, January 2007) as the foundation for these 
discussions. Further, Sea Grant can play a significant role in 
implementing these plans with an additional investment of resources and 
talent; an investment that is matched with contributions from the 
states and universities. I applaud H.R. 5618 for recognizing the 
importance of regional collaboration as a key component to the success 
of the National Sea Grant College Program.

3.  Flexibility in Resource Allocation

    The current Sea Grant statute (P.L. 107-299) includes within its 
authorization of appropriations a line for base funding along with a 
number of ``Congressional mandates'' for research on zebra mussels, 
oyster disease and restoration, and harmful algal blooms, as well as 
provides for fisheries extension. The purpose of these mandates in 2002 
was to ensure that Sea Grant dollars were being explicitly used to 
address these topics. While I cannot and will not deny the importance 
of addressing the issues identified by these mandates, I support the 
changes in H.R. 5618 to remove these explicit mandates and instead 
provide an authorization for overall base funding for Sea Grant. 
Providing one authorization for the program as opposed to a myriad of 
authorizations gives the National Sea Grant Office enhanced flexibility 
for the management of Sea Grant resources to ensure that the most 
critical and timely issues are subjected to the very best science, 
education, and outreach given limited federal dollars. It also provides 
Sea Grant with the ability and agility to address emerging needs and 
issues much more effectively and efficiently.

4.  Linking Sea Grant Priorities to Federal Priorities

    H.R. 5618 links the Sea Grant strategic planning and priority 
setting process to the federal interagency Ocean Research Priorities 
Plan and Implementation Strategy\1\ released in January 2007 by the 
Joint Subcommittee on Ocean Science and Technology. The interagency 
ocean research priorities plan was greatly informed and strengthened by 
State and regional input provided by the Federal-State Task Force 
organized by the Subcommittee on Integrated Management of Ocean 
Resources (SIMOR) of the U.S. Committee on Ocean Policy, on which I was 
a member. Linking Sea Grant priorities to this interagency effort is a 
significant change; one that will enhance Sea Grant efforts to leverage 
federal resources to develop and implement joint multi-agency efforts. 
I submit that Sea Grant, as a proven resource and a successful federal-
State-university partnership, should be utilized whenever possible by 
the Federal Government to address its national ocean research and 
outreach priorities; however, for this to become a reality, enhanced 
federal investment in Sea Grant is crucial.
---------------------------------------------------------------------------
    \1\ Charting the Course for Ocean Science in the United States for 
the Next Decade: An Ocean Research Priorities Plan and Implementation 
Strategy, NSTC Joint Subcommittee on Ocean Science and Technology, 
January, 2007.

---------------------------------------------------------------------------
5.  Authorization of Appropriations

    While up to this point I have shared nothing but support for the 
provisions of H.R. 5618, I would like to register my concern about 
Section 10, Authorization of Appropriations. The authorization levels 
contained in H.R. 5618, particularly for Fiscal Year (FY) 2009, 
represent a significant reduction (of more than 33 percent) from Sea 
Grant's current (FY 2008) authorization level. While over the last six 
years the National Sea Grant College Program has not received 
appropriations that have come close to its authorization levels, such a 
significant reduction could be interpreted to say that Sea Grant will 
never reach such levels of appropriations, and falls short of what is 
truly needed to address the ever-increasing needs and opportunities 
that our nation's coastal, ocean, and Great Lakes resources present, as 
articulated in the report of the U.S. Commission on Ocean Policy 
(2004), in other recent analyses, and indeed in H.R. 5618. For these 
reasons, I ask that the Committee consider including in H.R. 5618 
authorization of appropriations levels that grow to $125 million by FY 
2014.
    The budgets of both the National Sea Grant Office and the State Sea 
Grant programs were directly impacted by the dramatic reduction of Sea 
Grant appropriations (by about 13 percent) starting in FY 2006. Indeed, 
each of the State Sea Grant programs absorbed a budget reduction of 
about three (3) percent during the FY 2007 cycle. The National Sea 
Grant Office, from what we understand, had to divert funding from 
national investments to core Sea Grant support to help offset what 
could have been much more significant reductions in State Sea Grant 
program support. Exacerbating this situation is the fact that a portion 
of each State Sea Grant program budget is devoted to core salaries and 
wages which, just as with federal staff salaries, rise each year due to 
cost-of-living increases; these also have cut into the programmatic 
``buying power'' of the State Sea Grant programs.
    These impacts have begun to directly affect our ability to deliver 
services to our coastal constituencies on a regular basis. Stakeholders 
all over the country have grown to rely on the high level of service 
and expertise coming out of the Sea Grant program. However, the level 
of Sea Grant support has not kept pace with the increasing pressures 
and needs of our coastal communities. In addition, the costs of 
research and education are rising, which under a flat funding 
environment means that programs are forced to reduce staff and leave 
numerous high-quality research and outreach projects unfunded. To put 
it into perspective, Sea Grant's appropriations are more than 20 
percent below the buying power of its 1980 level.
    The implications for Sea Grant are significant with respect to its 
ability to significantly contribute to the economic, environmental, and 
social well-being and health of our coastal regions. Currently, the Sea 
Grant network is severely strained and challenged to support its 
current activities, staff, and operations with its current budget, and 
has not been able to invest in new research, education, and outreach 
efforts to address emerging challenges in such areas as regional 
climate change, coastal community resiliency, and ecosystem-based 
management. At present, only about 12 percent of the research proposals 
submitted for funding to the Sea Grant program are funded due to 
resource constraints. In addition, Sea Grant's extension, 
communication, and education activities are in jeopardy. A recent 
report of the NOAA Science Advisory Board recognized the value of 
extension, education, and outreach endeavors by NOAA and called for the 
expansion of these activities. Sea Grant is the model program for 
implementing such a request with its broad on-the-ground and highly 
credible network. However, it will be impossible to fulfill that policy 
recommendation without additional funding support for the program. 
Research, education, and outreach are at the heart of what Sea Grant is 
all about. Each component must be supported in order to meet increasing 
research demands and to turn that research into sound policy that keeps 
our citizens safe and prosperous.
    Again, I urge you to include in H.R. 5618 authorization of 
appropriations levels that recognize the current and future needs of 
the program and allow the program to grow to $125 million by FY 2014.

What Makes Sea Grant Unique?

    Sea Grant was created by Congress in the mid-1960s as an analog to 
the successful Land Grant College Program administered by the U.S. 
Department of Agriculture. This ``College of the Seas'' was created to 
harvest the many talents, diverse expertise, and ability to respond 
rapidly to issues and opportunities embodied in the Nation's top 
universities, to ensure the wise use and conservation of the Nation's 
coastal, marine, and Great Lakes resources. I would submit to you that 
over the past 42 years, Sea Grant has done just that, albeit with 
support at more than an order of magnitude less than its sister Land 
Grant program.
    Sea Grant is unique among federal research and outreach programs 
for a number of reasons:

Sea Grant is by definition a federal-State-university partnership. Sea 
Grant provides planning, implementation, and administrative mechanisms 
by which the Federal Government can engage the U.S. universities in 
addressing critical national coastal and marine issues. Because it is a 
matching fund program, the states and universities have a vested role 
and responsibility in ensuring that Sea Grant programs and activities 
are conducted in an efficient and effective manner. Indeed, a great 
number of State Sea Grant programs actually provide more matching 
support than is required by law (i.e., two federal dollars to one non-
federal).

Sea Grant employs an integrated research, education, and extension 
approach. While many federal science agencies focus their attention 
primarily on supporting research, Sea Grant is unique in that it 
couples research and outreach together to ensure that the scientific 
information generated is made available to constituencies in forms that 
they can understand and use.

Sea Grant addresses ``real'' problems and opportunities for ``real'' 
people. The research that Sea Grant supports is based on user needs, 
which are solicited by the State Sea Grant programs through planning 
workshops, on-line surveys, constituent interactions, and information 
received by agents and specialists with the State Sea Grant Extension 
Service programs, and is reflected in State Sea Grant strategic plans. 
These feedback mechanisms ensure that Sea Grant efforts are relevant, 
timely, focused, and stakeholder-driven, and directly address the needs 
of government, business, industry, communities, education, and 
workforce development.

Sea Grant works at many geographic scales. The complexity of issues and 
opportunities affecting our nation's coastal, ocean, and Great Lakes 
resources underscore the fact that one cannot apply a ``one size fits 
all'' approach to them--they need to be addressed at the appropriate 
geographic scales. For example, fisheries management for the snapper-
grouper complex in the South Atlantic Bight may require a strong 
regional approach, whereas addressing the effects of land use on 
ecosystems may be better addressed at the local level, where 80 percent 
of all land-use decisions are made. The point is that Sea Grant has the 
built-in flexibility to be able to serve the information needs of a 
diversity of users at the national, regional, State, and local levels. 
There are many examples of such efforts in the southeastern U.S. and in 
South Carolina; several are provided in the next section of my 
testimony.

Sea Grant is seen by its constituencies as an honest broker. Because 
Sea Grant programs focus on the generation and delivery of science-
based information, and have no resource management or regulatory 
responsibilities, their staff are able to engage a wide diversity of 
coastal and marine interests to develop consensus or resolve resource 
conflicts. Sea Grant's Extension Program staff typically live in the 
locations where their clientele reside; they are members of the 
communities in which they work and have built a wealth of credibility 
with their audiences.

Sea Grant leverages significant resources. Since Sea Grant funding 
support has fallen far short of the resources the program needs to 
address the ever-increasing demand for its information, products, and 
services, State Sea Grant programs have been able to leverage their 
funding with other sources of support, both human and financial. In 
South Carolina, for example, the Sea Grant Consortium has been able to 
competitively secure more than $4 million in grants to complement its 
Sea Grant efforts last year. Increased funding for Sea Grant will 
enable State Sea Grant programs to leverage even more. Also, we have 
been able to develop partnerships with representatives from State and 
federal agencies, universities, and the private sector to organize 
initiatives to address key resource issues. For example, the S.C. Sea 
Grant Consortium organized a S.C. Task Group on Harmful Algae in 1996, 
which has collectively developed a multi-institutional protocols for 
HAB monitoring and surveillance, rapid response to events, and post-
event triage.

Resource Challenges in South Carolina and the Region

    Sea Grant is thus in a unique position to meet current and future 
challenges that confront resource managers, coastal communities, 
business and industry, and interested citizen groups throughout the 
United States through the generation and provision of science-based 
information. I have worked with my colleagues at S.C. Department of 
Health and Environmental Control-Office of Ocean and Coastal Resource 
Management (S.C. DHEC-OCRM), S.C. Department of Natural Resources-
Marine Resources Division (S.C. DNR-MRD) and our counterparts in the 
southeastern U.S. to identify a number of these issues.

Coastal Development. While the southeastern region of the United States 
is one of the least developed in the Nation, it is now the fastest 
growing. Four of the eight states with the highest rate of population 
growth from 1960-1990 were the four southeastern states. According to 
the Census Bureau, the four southeastern U.S. states have been recently 
ranked as the top thirteen fastest growing states in the Nation, and 
one-third of the Nation's 100 fastest-growing counties are in Georgia 
(16), Florida (14), North Carolina (3), and South Carolina (1). This 
growth is concentrated in coastal counties, and is out-pacing our 
ability to understand, react, and plan for changes in environmental, 
social, and economic conditions. Significant impacts to the landscape, 
estuarine water quality, and coastal ecosystem integrity are predicted 
as a result of increasing coastal urbanization due to population 
growth. Growth and development are already placing enormous pressure on 
coastal resources, watersheds, and the adjacent coastal ocean. Sea 
Grant is well-positioned, with an expansion of its coastal community 
development initiative, to enhance its role in addressing the issues 
that have emerged from these development pressures.

Mapping Marine Resources. Proper management and use of the region's 
living and non-living marine resources requires that that region 
undertake a comprehensive mapping and research program. Presently, less 
than five percent (five percent) of the coastal ocean region of the 
southeastern U.S. has been mapped. A comprehensive assessment of (1) 
existing ocean infrastructure (e.g., pipelines, cables, channels, 
etc.), (2) sources and quality of sand resources for beach nourishment 
projects, (3) critical fisheries habitat, including documentation of 
hard bottom areas and other important habitats, and (4) potential 
offshore energy sources, including natural gas, is necessary to 
identify the potential for multiple use conflicts and allow for 
comprehensive planning for an expanding range of ocean activities. 
Therefore, a significant need exists for standardized, integrated, and 
accessible spatial data for the management of marine resources in our 
region. Management of the region's ocean and coastal resources is 
dependent on developing the scientific understanding of the processes 
that control resource behavior, and their fate is essential to 
maintaining healthy ecosystems and providing renewable, enjoyable, and 
safe resources to the public. Sea Grant has the capacity in its 
universities to generate and disseminate such information to the 
resource management community.

Healthy Fisheries and Habitat. The South Atlantic Fishery Management 
Council, through a partnership of State agencies, federal agencies, 
universities, and conservation organizations, is developing a Fishery 
Ecosystem Plan and Comprehensive Ecosystem Amendment for the South 
Atlantic region. This effort will meet existing and anticipated 
mandates in the Magnuson-Steven Fishery Conservation and Management 
Act, the Ecosystem Principals Report to Congress, and the President's 
Ocean Action Plan developed in response to the U.S. Commission on Ocean 
Policy. Goals include maintaining and improving (1) ecosystem structure 
and function, (2) economic, social, and cultural benefits from 
resources, and (3) biological, economic, and cultural diversity in the 
South Atlantic Region. Ecosystem-based management has been embraced by 
the Regional Council, but will require a significant investment in 
research and outreach to implement it. Again, this is an effort to 
which Sea Grant can greatly contribute.

Watershed-Coastal Ocean Linkages. From the interior basins to the 
coastal margins, natural processes and human activities in the 
southeastern U.S. are affected by water flow, and its role in 
determining the transport and fate of materials and the structure of 
ecosystems. Inputs of freshwater from rivers, ground water, and 
rainfall vary spatially and temporally. Associated with the volumes of 
water delivered to the coastal ocean are variable loads of sediment, 
nutrients, and pollutants. The inputs of freshwater and materials 
interact with the coastal ocean to influence processes such as local 
circulation patterns, sediment accumulation and transport, shoreline 
dynamics, and habitat quality and stability for marine and estuarine 
species.

Disaster-Resilient Communities. Hurricanes and other coastal hazards 
are a major concern in the southeastern U.S., threatening hundreds of 
coastal communities, a multi-billion dollar tourism industry, coastal 
and watershed development and infrastructure, the fishing industry, and 
traditional coastal enterprises. In the wake of Hurricane Hugo, which 
struck the South Carolina coast in 1989, over $5 billion in damages to 
coastal residences and industry underscored the vulnerability of 
coastal development to natural processes. The more significant impacts, 
both human and structural, that occurred as a result of Hurricanes 
Andrew, Katrina, Rita, and Wilma have since underscored the need for 
the southeast region to greatly enhance its understanding of ocean and 
weather dynamics and improve its prediction and forecasting 
capabilities. Longer-term phenomena, such as climate change and sea 
level rise, have also emerged as critical issues for coastal resource 
managers and coastal communities. Each of the southeastern states has 
initiated activities that focus on the needs of the states in light of 
emerging concerns about these long-term coastal hazards.

Prospects for Near-shore and Offshore Energy Development. In 2006, the 
U.S. Congress passed an energy bill to increase the ability of the 
Nation to become more energy self-sufficient. Strategies include 
opening additional coastal ocean and offshore areas to further oil and 
gas development, as well as pursuing alternative energy solutions 
through wind, wave, current, biofuels, and others. For example, off the 
southeastern U.S. coast, there is industry interest in natural gas 
deposits, companies are exploring the feasibility of siting offshore 
wind energy facilities, and the potential for wave and current energy 
is now being discussed.

Environmental Education and Public Awareness. Population trends for the 
southeast U.S. region, and the limited information that exists on its 
coastal ocean resources, suggests that there are many more people 
living in the southeastern United States that have little knowledge of 
or experience with the dynamic nature of our region's ecosystems, 
hurricane and storm patterns, shoreline and beaches, and other coastal 
ocean-related phenomena. A regional partnership is needed to foster a 
``sense of place'' among southeastern coastal residents, and to clarify 
links between the health of the coastal and ocean ecosystem and their 
quality of life; an effort that Sea Grant can foster. An informed 
population is a prepared population.

Selected Sea Grant Highlights in South Carolina and the Region

    There is great potential and inertia with the Sea Grant College 
program network to play a much more significant role in addressing 
critical coastal, marine, and Great Lakes issues and opportunities 
throughout the Nation with an increase in program support. 
Nevertheless, Sea Grant continues to produce significant results for 
its extremely diverse and varied constituencies at the regional, State, 
and local levels on behalf of the Federal and State governments and the 
over 300 universities it engages.
    The Sea Grant program has significantly contributed towards a 
sustainable environment and economy through integrated programs of 
research, education, and outreach in my own State of South Carolina, as 
the following regional and State-level examples illustrate.

Regional Sea Grant Highlights

         Establishing the Southeast Regional Association for Ocean 
        Observing. The S.C. Sea Grant Consortium is serving as the lead 
        organization, under the terms of a grant awarded by the NOAA 
        Coastal Services Center, to foster the establishment of a 
        ``Regional Association'' for the coastal ocean observing system 
        network in the Southeastern coastal ocean region of the United 
        States to integrate coastal ocean observing capabilities and 
        provide regional data and information. The Southeast Coastal 
        Ocean Observations Regional Association, (SECOORA: see http://
        secoora.org), with Consortium leadership and assistance, is 
        providing administrative, operational, and budgetary support 
        for SECOORA, which has been incorporated as a 501(c)(3) non-
        profit corporation with 42 dues-paying member organizations 
        from NC, SC, GA, and FL.

         Improving Flood Detection and Warning Capabilities. Riverine 
        and coastal flooding associated with hurricanes, tropical 
        storms, and other forces of nature cause significant loss of 
        property and economic hardship each year. To help communities 
        in South Carolina, North Carolina and beyond, the S.C. Sea 
        Grant Consortium and its partners, the National Sea Grant 
        Office, North Carolina Sea Grant, and the NOAA National Severe 
        Storms Laboratory (NSSL), are leading a regional project, CI-
        FLOW (Coastal/Inland Flood Observation and Warning), to pilot a 
        new flood detection and monitoring system. Test results are 
        being used in conjunction with NOAA National Weather Service 
        flood tools to improve flash flood detection and warning 
        capabilities. CI-FLOW is also being integrated by N.C. State 
        University researchers into a hurricane storm surge model to 
        provide more accurate inputs from riverine flooding, as well as 
        being transferred to Sea Grant programs in the Gulf of Mexico 
        for flood applications there.

         Multi-disciplinary Team's Findings Published in Book by 
        Springer-Verlag. Understanding how coastal growth and 
        development impacts natural resources helps decision-makers 
        guide development for both economic benefit and conservation of 
        our natural resource heritage. Results of the South Atlantic 
        Bight Land Use--Coastal Ecosystem Study (LU-CES), a multi-
        disciplinary research program initiated by the S.C. Sea Grant 
        Consortium with funding from the NOAA Coastal Ocean Program, 
        have formed the basis for a recently published book by 
        Springer-Verlag titled Changing Land-Use Patterns in the 
        Coastal Zone: Managing Environmental Quality in Rapidly Growing 
        Regions, edited by Gary S. Kleppel, M. Richard DeVoe, and Mac 
        V. Rawson. South Carolina and Georgia Sea Grant extension and 
        communications staff wrote the chapter introductions, which 
        provide the reader with a summary of each chapter written in 
        layman's terms. The book is part of the Springer Series on 
        Environmental Management, and up to two dozen investigators 
        from a range of marine-related science disciplines contributed 
        to the text by writing chapters. Due to its multi-disciplinary 
        and collaborative nature, the book should become a landmark in 
        the area of understanding coastal estuarine ecosystem dynamics 
        and the nature of anthropogenic inputs. To date, almost 1,000 
        copies of the book have been sold.

         SouthEast Center for Ocean Sciences Education Excellence. The 
        SouthEast Center for Ocean Sciences Education Excellence 
        (COSEE-SE), one of 10 regional centers supported by the 
        National Science Foundation nation-wide, has been established 
        at the S.C. Sea Grant Consortium through a multi-year grant 
        from the NSF, with additional funding from NOAA Office of Ocean 
        Exploration and the NOAA Coastal Services Center. The role of 
        COSEE-SE is to foster educator-scientist interactions, increase 
        access and preparation of culturally diverse populations, 
        promote regional networking and collaboration, and improve 
        science education and ocean literacy for all citizens. To date, 
        COSEE-SE has partnered with more than 75 organizations to 
        engage more than 2,500 teachers from NC, SC, and GA in 
        enhancing their capabilities in incorporating ocean sciences in 
        the classroom.

South Carolina Sea Grant Highlights

         Bringing Marine Science to the Upstate. Recognizing that the 
        influence of the oceans extends well inland from the coast, and 
        that activities in upland areas can have impacts on coastal, 
        the Roper Mountain Science Center (RMSC) in Greenville, SC 
        secured a small grant of just $1,500 from the Consortium in the 
        mid-1980s to assemble a ``touch-tank'' so that children in the 
        upstate could become more familiar with sea life. According to 
        the center, this modest investment by Sea Grant led to the 
        development of the Marine Lab and the Ecology Lab at the 
        Center. The Center is now in the process of developing 
        education exhibits in the labs, and in the coming year 8,000 
        students and teachers will attend formal lessons in the Marine 
        Lab. Each lesson will focus on the South Carolina Science 
        Curriculum Standards. Students from 29 school districts in 14 
        counties visit the Roper Center, and 11,000 other children will 
        see the Marine Lab at designated public times. The Consortium 
        continues to support the Roper Mountain Science Center and 
        assist with new exhibits to enhance teaching skills and 
        experiences. Last year, the Consortium supported a grant for 
        education presentation equipment needed for lessons in the new 
        Marine Lab. I have attached to this testimony a letter from Dr. 
        Brandis Hartsell, Curator, Marine and Earth Sciences at RMSC, 
        which provides more detail about this exciting partnership.

         Securing Residential Structures in the Face of Coastal 
        Hazards. With Sea Grant support, Dr. Ed Sutt, while a graduate 
        student at Clemson University, studied better ways to secure 
        residential home structures under threat from hurricanes and 
        earthquakes. He discovered that house failures often start with 
        a broken window. High winds then inflate the house and cause 
        the roof to lift from its frame. In response, and based on 
        initial Sea Grant support, Dr. Sutt, now with Stanley Works, 
        invented a nail made of carbon-steel alloy, with a wider head 
        than other nails, barbs that hold the shaft firmly in the frame 
        to prevent pullout, and a twist below the nail head to fill the 
        space that the barbs open to hold the nail in place. Tests, 
        during which the new nail was subjected to hurricane force 
        winds, revealed the nail held at 20,000 pounds: at 9,000 
        pounds, regular nails begin to pull out of the framework. Dr. 
        Sutt's invention, known as the Hurri-Quake nail, was voted the 
        2006 Grand Award Winner for the ``Innovation of the Year'' by 
        the national magazine, Popular Science.

         Enhancing Red Drum Stocks. Sea Grant-supported stock 
        enhancement research on the state's top gamefish, red drum, has 
        demonstrated that red drum can be spawned in captivity, 
        released into coastal estuaries, and make significant 
        contributions to natural coastal populations. This research is 
        being conducted in South Carolina by S.C. Department of Natural 
        Resources-Marine Resources Division scientists. As a result of 
        Sea Grant support, stock enhancement is now a recognized 
        management tool for red drum in South Carolina. In addition, 
        methodologies developed during the research--utilizing state-
        of-the-art chemical and genetic marking techniques--are now 
        being implemented as the primary marking and detection 
        technique by S.C. DNR for all fish stocked in South Carolina 
        waters.

         Conservation Plan Helps Jasper County Prepare for Growth. 
        Jasper County, like many South Carolina communities, is growing 
        at a rapid pace. Planning and managing that growth is important 
        to support and conserve the natural resources that enhance 
        economic development. In August of 2004, the S.C. Sea Grant 
        Consortium, in conjunction with the Jasper Soil and Water 
        Conservation District (JSWCD), the USDA-Natural Resources 
        Conservation Service (NRCS), and the S.C. Department of Natural 
        Resources, began a countywide conservation planning effort. In 
        November 2006, the plan was submitted to the County for 
        incorporation into the Natural Resource Element of their 
        Comprehensive Land Use Plan. A print version was published in 
        June 2007 and is also available on CD-ROM and on the S.C. Sea 
        Grant Consortium web site.

Summary--Enhanced Federal Support for Sea Grant is Critical

    Mr. Chairman and Members of the Subcommittee, I join with my Sea 
Grant colleagues around the country to suggest that the National Sea 
Grant College Program should become NOAA's primary university-based 
research, education, extension and outreach, and technical assistance 
program for coastal, marine, and Great Lakes resources. However, to 
achieve this end will require a significant infusion of federal (and 
thus non-federal matching) support to enhance the National Sea Grant 
College Program to a level of $125 million by fiscal year 2014.
    I believe it is critical for the Congress to provide the National 
Sea Grant College Program with the resources necessary to build on the 
program's record of success and promise with a reauthorization of 
appropriations that matches both the immediate and long-term needs of 
all who live and work along the Nation's coastlines, and one that 
represents the initial step in achieving a broader vision for the 
program as proposed in this testimony.
    Thank you again for the opportunity to testify on behalf of the 
S.C. Sea Grant Consortium. I will be glad to address any questions the 
Subcommittee may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     Biography for M. Richard DeVoe
    Rick DeVoe joined the S.C. Sea Grant Consortium in 1980, and has 
served as its Executive Director since 1997. Rick is also a Research 
Associate of the Belle W. Baruch Institute for Marine Biology and 
Coastal Research at the University of South Carolina, and Associate 
Faculty Member of the Graduate Program in Marine Biology and Adjunct 
Faculty Member with the Marine Environmental Studies Graduate Program 
at the College of Charleston. In addition to managing Sea Grant efforts 
in South Carolina, Rick's professional interests focus on coastal and 
marine resource policy, science-to-management linkages, science 
communication and education, and State and regional coastal ocean 
planning and policy.
    At the national level, Rick currently chairs the External Relations 
Committee of the Sea Grant Association (SGA), and previously served 
SGA's President. He is a member of the Executive Committee of the Board 
on Oceans and Atmosphere of the National Association of State 
Universities and Land Grant Colleges, the Federal-State Task Team of 
the National Science and Technology Council's Subcommittee on 
Integrated Management of Ocean Resources (SIMOR), the External Linkages 
Advisory Committee of the Oceans and Human Health Center at NOAA 
Hollings Marine Laboratory (Charleston, SC), and the Board of The 
Coastal Society. He also is an Executive Committee member of the 
National Federation of Regional Associations (for Ocean Observing; 
NFRA), chairs the Board of Directors of the SouthEast Coastal Ocean 
Observing Regional Association (SECOORA) and is a member of the Board 
of Advisors for the Southeast Center for Ocean Sciences Education 
Excellence (COSEE-Southeast). Rick also represents South Carolina as a 
member of the Consortium for Ocean Leadership. He has had the pleasure 
of serving in the past as President of the U.S. Chapter of the World 
Aquaculture Association (now the U.S. Aquaculture Society) and the 
National Shellfisheries Association.
    Rick is co-editor of two books, and has authored seven book 
chapters and six peer-reviewed publications. He earned degrees from 
Fairleigh Dickinson University (B.S., marine biology), CUNY/City 
College of New York (M.A., biological oceanography), and the University 
of Rhode Island (M.M.A., marine policy).

    Chairman Lampson. Thank you, Mr. DeVoe.
    And Mr. Riley, you are recognized for five minutes.

  STATEMENT OF MR. PATRICK F. RILEY, GENERAL MANAGER, WESTERN 
             SEAFOOD COMPANY, INC., FREEPORT, TEXAS

    Mr. Riley. Mr. Chairman, Ranking Member Inglis, Members of 
the Subcommittee, thank you for inviting me here today to 
address this body in reference to H.R. 5618, National Sea Grant 
College Program.
    First, let me say that my testimony here today is 
reflective of the experiences that I have encountered while 
engaged in the Gulf and South Atlantic shrimp fisheries. I 
would be remiss if I did not point out this interaction only 
offers a small sampling of the activities the Sea Grant College 
program is involved in across this great nation as a whole.
    My first encounter with Sea Grant came in an educational 
setting. When I was in elementary school, I was in the fifth 
grade and was attending a career fair that the school was 
hosting to get youth to think about their future. This is where 
I first met Charlie Moss with Texas Sea Grant. He was a 
Brazoria County Extension agent and had a booth highlighting 
commercial fishing. This was of great interest to me since my 
father was an owner-operator of a Gulf shrimp trawler for 
decades. While I must have been a certain pest to Mr. Moss, he 
diligently answered the myriad of questions that I and others 
threw at him. This type of educational work continues today and 
was highlighted with a field trip on May 8 of this year of the 
kindergarten students from O.M. Roberts that participated in an 
annual field trip to the beach. I was there and participated as 
a volunteer father helping pull the biological sampling seine 
to collect specimens for the students to look at. For the vast 
majority of these students, this is the first and perhaps the 
only interaction they will have with aquatic life in living 
form that is literally at their doorsteps on the beaches of 
coastal Texas. The field trip has become a much-anticipated 
rite of passage for the students of OMR and its success is in 
great part due to the participation of Sea Grant and the 
current Brazoria County Extension agent, Mr. Rich Tillman.
    In much the same vein, the research vessel Karma, better 
known as the Floating Classroom, has helped tens of thousands 
of Texans, most of whom are students from the fourth through 
the 12th grade, who come to gain a higher appreciation of the 
vast ecological significance of our coastal estuaries and near-
shore waters since its arrival in 2002.
    My professional interaction with Sea Grant has been both 
immense and rewarding. At Western Seafood, we have been 
actively involved with different Sea Grant-led or -sponsored 
initiatives since the mid-1970s. Almost all of these 
initiatives and projects involve two common themes. The first 
of these becoming more efficient with our time, our production 
and resources we are harvesting. The second theme is helping us 
use our innate knowledge as fisherman to become better stewards 
of our marine environment.
    In its early years, Sea Grant worked with fisherman such as 
my father to develop a very successful hang log trawl 
obstruction book. Through cooperative effort with the shrimp 
industry, over 12,000 hangs were identified from the Rio Grande 
River to the mouth of the Mississippi. It should be stressed 
that this information was usually kept confidential among 
fisherman but the cooperative spirit of Sea Grant convinced 
captains to share their personal information so that every 
producer would have access to the collective industry wisdom. 
This hang book has become a bible aboard trawlers until the 
introduction of more sophisticated navigation systems. It is 
credited with significantly reducing gear loss or damage from 
bottom obstructions and has literally saved the industry 
hundreds of millions of dollars.
    One of the first major breakthroughs that dealt with 
production efficiency was introduced at the quad rig trawl. 
Prior to that time, shrimp trawlers typically pulled one net on 
each side of the vessel. With the advent of the quad rig, it 
allowed operators to pull four smaller nets, reducing drag and 
fuel consumption while increasing the amount of area covered 
due to overall increase of head rope sweep of the nets 
involved. Production could be increased while costs of inputs 
actually went down. This work was pioneered by Sea Grant 
fishery specialist Gary Graham working closely with industry.
    In the mid to late 1980s, another hurdle was jumped with 
the help of Sea Grant. Implementation of turtle excluder 
devices, or TEDs, was a very controversial issue. The vast 
majority of industry participants did not want anything to do 
with these devices and the National Marine Fisheries Service, 
or NMFS, was having a very difficult time implementing their 
use. At this time Sea Grant stepped in to diffuse a very 
volatile situation. Using the goodwill built up over the last 
two decades of successful interaction with industry, fishery 
specialists worked to calm fears of the fisherman and worked 
with a few ``high liners'' to show the gear would not be as 
adverse to the operation as it once feared. Once these trials 
showed success, the fleet started to adopt these devices, and 
within a very short period of time came into compliance with 
NMFS regulations.
    When bycatch became a major issue in the mid-1990s in the 
industry, Sea Grant was there to help the industry not only 
become compliant with new federal mandates but also encouraged 
development of industry-based solutions to the problem. As a 
result, the most efficient device that is legal today, Jones-
Davis, was developed by two fishermen. At the same time, Sea 
Grant specialists in the Gulf of Mexico spearheaded a massive 
effort that resulted in the shrimp fishery have what some have 
called the greatest data set of catch characterization of any 
fishery in the United States.
    Sea Grant remains in the forefront regarding efforts to 
make our fishery more economically sustainable and efficient. 
During 1990, the Texas Sea Grant Program pioneered with Allied 
Chemical Company to evaluate the use of technologically 
advanced trawl fibers. As a result, over 500 trawlers converted 
to the use of Spectra netting, which significantly increased 
trawl strength while creating less drag in the water. This 
transferred to better fuel efficiency and its application is 
now being used worldwide. Today Sea Grant is demonstrating less 
expensive high-technological fiber, Sapphire, which has been 
rapidly adopted by shrimp vessels for its strength and 
contributions to energy efficiency.
    During a 2001 trip to Iceland to visit vendors of 
processing equipment that we utilize in our shore-side 
operations, I became introduced to the hydrodynamic trawl door. 
I was intrigued by the concept, and in 2004 started to seek out 
partnering manufacturers around the world so we could introduce 
these new trawl doors in the Gulf shrimp fishery. When I found 
no interest in doing so, I purchased an off-the-shelf model 
from an Icelandic company. When I was planning the sea trial, I 
contacted fishery specialist Gary Graham to see if he was 
interested in going along. He did, and what he witnessed was 
pure failure, but he was supportive and urged me to continue. 
Two months later, we regrouped with another size door and went 
on a second sea trial. Gary accompanied us then and we came 
back successful in most regards. We still had a production 
equivalency program to deal with but overcame this in short 
order. After numerous trials and modifications to these new 
doors, we were able to show catch rates that were equal to that 
of traditional gear but with a fuel savings of 30 percent. At 
this time, Sea Grant stepped in with technology transfer in 
mind.
    Gary Graham and Sea Grant economist Mike Haby were able to 
secure funding from USDA and the Texas governor's energy office 
to fund two pilot demonstration programs. These projects funded 
the purchase of new high-efficiency trawl doors, high-strength 
netting for cooperative research and demonstrations within the 
shrimp industry for a scientifically based and statistically 
reviewed study to document the potential fuel savings the gear 
would produce. This effort alone introduced the gear to 
fisheries as a whole and lended it credibility. It is through 
this effort this gear is being adopted rapidly by industry. 
Today in the ports of Brownsville and Port Isabel in south 
Texas, 50 percent of the 180 to 190 active vessels in the 
fishery will have converted to this gear prior to opening of 
our Texas shrimp season on July 15. One could extrapolate this 
savings could approach two million gallons of fuel in just 
these two ports based on historical consumption averages of the 
fleet. At $4 a gallon, this will have a significant impact on 
the continued viability of fishing in south Texas.
    In conclusion, I would like to stress Sea Grant is a unique 
program that has provided a vital research and outreach link 
for the fishery. The savings to the fishery in the Texas 
program has consistently contributed through its research and 
educational efforts that far exceeded the costs for funding 
this worthwhile organization. I would ask that you continue to 
endorse Sea Grant and that serious support be directed towards 
its continued existence. Thank you for your time and 
consideration regarding my testimony.
    [The prepared statement of Mr. Riley follows:]
                 Prepared Statement of Patrick F. Riley
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me here today to address this body in reference to H.R. 5618, 
National Sea Grant College Program Act.
    First, let me say that my testimony here today is reflective of the 
experiences that I have encountered while engaged in the Gulf and South 
Atlantic Shrimp fisheries and I would be remiss if I did not point out 
that this interaction only offers a small sampling of activities that 
the Sea Grant College program is involved in across this great nation 
as a whole.
    My first encounter with Sea Grant came in the educational setting 
while I was in elementary school. I was in the 5th grade and was 
attending a Career Fair that the school was hosting to get youth 
thinking about their future. This is where I first met Charlie Moss 
with Texas Sea Grant. He was the Brazoria County Extension Agent and 
had a booth highlighting commercial fishing. This was of great interest 
to me since my father was an owner/operator of a gulf shrimp trawler 
for decades. While I must have been a certain pest to Mr. Moss, he 
diligently answered the myriad of questions that I and others threw at 
him. This type of educational work continues today and was highlighted 
with a field trip on May 8th of this year when kindergarten students 
from O.M. Roberts participated in an annual Field trip to the beach. I 
was there and participated as a volunteer father helping pull a 
biological sampling seine to collect specimens for the students to look 
at. For the vast majority of these students, this is the first and 
perhaps the only interaction that they will have with aquatic life in a 
living form that is literally at their doorstep on the beaches of 
coastal Texas. This field trip has become a much anticipated right of 
passage for the students of O.M.R. and it's success is in great part 
due to the participation of Sea Grant and the current Brazoria County 
Extension Agent, Mr. Rich Tillman.
    In much the same vane, the R/V Karma, better known as the Floating 
Classroom, has helped tens of thousands of Texans, most of whom are 
students from the 4th through 12th grade, who come to gain a higher 
appreciation of the vast ecological significance of our coastal 
estuaries and near-shore waters since its arrival in 2002.
    My professional interaction with Sea Grant has been both immense 
and rewarding. At Western Seafood, we have been actively involved with 
different Sea Grant led or sponsored initiatives since the mid 1970's. 
Almost all of these initiatives and projects involved two common 
themes. The first of these is becoming more efficient with our time, 
our production costs, and the resources we are harvesting. The second 
theme is helping us use our innate knowledge as fishermen to become 
better stewards of our marine environment.
    In its early years, Sea Grant worked with fishermen such as my 
father to develop a very successful hang log of trawl obstructions. 
Through cooperative efforts with the shrimp industry over 12,000 hangs 
were identified from the Rio Grande River to the Mouth of the 
Mississippi. It should be stressed that this information was usually 
kept confidential among fishermen, but the cooperative spirit of Sea 
Grant convinced captains to share their personal information so that 
every producer would have access to this collective industry wisdom. 
This hang log became a ``Bible'' aboard trawlers until the introduction 
of more sophisticated navigation systems. It is credited with 
significantly reducing gear lost or damaged from bottom obstructions, 
and has literally saved the industry hundreds of millions of dollars.
    One of the first major breakthroughs that dealt with production 
efficiency was the introduction of the Quad-Rig trawl. Prior to that 
time, shrimp trawlers typically pulled one large net on each side of 
the vessel. With the advent of the Quad rig, it allowed operators to 
pull four smaller nets, reducing drag and fuel consumption, while 
increasing the amount of area covered due to an overall increase of 
head rope sweep of the nets involved. Production could be increased 
while costs of inputs actually went down. This work was pioneered by 
Sea Grant Fisheries Specialist Gary Graham working closely with 
industry.
    In the mid to late 1980's another hurdle was jumped with the help 
of Sea Grant. The implementation of Turtle Excluder Devices (TEDs) was 
a controversial issue. The vast majority of industry participants did 
not want anything to do with these devices, and the National Marine 
Fisheries Services (NMFS) was having a very difficult time implementing 
their use. At this time, Sea Grant stepped in to diffuse a very 
volatile situation. Using the goodwill built up over the last two 
decades of successful interaction with the industry, Fishery 
Specialists worked to calm fears of the fisherman and worked with a few 
``High Liners'' to show that the gear would not be as adverse to their 
operations as once feared. Once these trials showed success, the fleet 
started to adopt the devices and within a very short period of time 
came into full compliance of NMFS regulations.
    When bycatch became a major issue in the mid 1990's in the 
industry, Sea Grant was there to help industry not only become 
compliant with new Federal Mandates, but also encouraged development of 
industry based solutions to the problem. As a result, the most 
efficient device that is legal today, the Jones-Davis, was developed by 
two fishermen. At this same time Sea Grant Fisheries Specialist in the 
Gulf of Mexico spearheaded a massive effort that resulted in the shrimp 
fishery having what some have called the greatest data set of catch 
characterization of any fishery in the United States.
    Sea Grant remains in the forefront regarding efforts to make our 
fishery more economically sustainable and efficient. During 1990 the 
Texas Sea Grant Program pioneered with Allied Chemical Company to 
evaluate the use of technologically advanced trawl fibers. As a result, 
over 500 trawlers converted to the use of Spectra netting which 
significantly increased trawl strength while creating less drag in the 
water. This transferred to better fuel efficiency and its application 
is now being used worldwide. Today, Sea Grant is demonstrating a less 
expensive high-technological fiber, Sapphire, which is being rapidly 
adopted by shrimp vessels for its strength and contributions to energy 
efficiency.
    During a 2001 trip to Iceland to visit vendors of processing 
equipment that we utilize in our shore-side operations, I became 
introduced to the Hydro Dynamic trawl door. I was intrigued by the 
concept and in 2004 started to seek out partnering manufacturers around 
the world so we could introduce these new trawl doors in the Gulf 
shrimp fishery. When I found none interested in doing so, I purchased 
an off the shelf model from an Icelandic company. When I was planning 
the sea trial I contacted Fisheries Specialist Gary Graham to see if he 
was interested in going along. He did and what he witnessed was pure 
failure, but he was supportive and urged me to continue. Two months 
later we regrouped with another size door and went on a second sea 
trial. Gary accompanied us and we came back successful, in most 
regards. We still had a production equivalency problem to deal with, 
but we overcame this in short order. After numerous trials and 
modifications to these new trawl doors, we where able to show catch 
rates that were equal to that of traditional gear, but with a fuel 
savings of 30 percent. At this time, Sea Grant stepped in with 
technology transfer in mind.
    Gary Graham and Sea Grant Economist Mike Haby were able to secure 
funding from USDA and the Texas Governor's Energy office to fund two 
pilot demonstration programs. These projects funded the purchase of new 
high efficiency trawl doors and high strength netting for cooperative 
research and demonstrations within the shrimp industry for a 
scientifically based and statistically reviewed study to document the 
potential savings the gear would produce. This effort alone introduced 
the gear to the fishery as a whole and lended it credibility. It is 
through this effort that the gear is being adopted rapidly by industry. 
Today in the ports of Brownsville and Port Isabel in south Texas, 50 
percent of the 180-190 active vessels in the fishery will have 
converted to this gear prior to the opening of our Texas Shrimp Season 
on July 15th. One could extrapolate that the savings could approach two 
million gallons of fuel in just these two ports based on historical 
consumption averages of the fleet. At $4.00 per gallon, this will have 
a significant impact of the continued viability of fishing in south 
Texas.
    In conclusion, I would like to stress that Sea Grant is a unique 
program that has provided a vital research and outreach link for the 
fishery. The savings to the fishery that the Texas program has 
consistently contributed through its research and educational efforts 
have far exceeded the costs for funding this worthwhile organization. I 
would ask that you continue to endorse Sea Grant and that serious 
support be directed toward its continued existence. Thank you for your 
time and consideration regarding my testimony.

                     Biography for Patrick F. Riley

Personal:

    I am a life-long resident of Southern Brazoria County. I was raised 
in Clute, Texas by Mike and Lynda Riley. Currently live in Lake 
Jackson, Texas with wife Marlena and children Michael (5) and Macie 
(2).

Education:

1993--Graduated Brazoswood High School, Clute, Texas

1993-1994--Attended Brazosport College, Lake Jackson, Texas

1994-1997--Attended Texas A&M University, College Station, Texas

Professional Experience:

<bullet>  General Manager of large family owned vertically integrated 
shrimp producing/processing company.

<bullet>  Manage day to day operations of company owned/operated 
vessels.

<bullet>  Manage day to day operations of unloading facility in 
Freeport, Texas.

<bullet>  Over see operations of Marine & Industrial Specialties, our 
marine hardware business.

<bullet>  Over see operation of Freeport Diesel, our Caterpillar, Twin 
Disc, and Isuzu Marine engines dealership.

<bullet>  Manage day to day operations of Ice Dock Inc. Our marine 
fuel, lube, and ice terminal.

<bullet>  Manage State and federally mandated spill response/avoidance 
program for Ice Dock Inc.

<bullet>  Work with management team on marketing strategies to maximize 
product value.

<bullet>  Collaborated with researchers and resource managers on State 
and federal level to gather best available science.

<bullet>  Collaborated with researchers and NMFS to evaluate and gather 
data on alternative gear such as, but not limited to, BRD's, TED's, Net 
and Cod end configurations, etc.

<bullet>  Implemented and directed Company funded research and 
development of new fishing gear and techniques to enhance harvesting 
efficiency.

<bullet>  Work with Sea Grant Institutions in the Gulf and South 
Atlantic regions to disseminate data from company research and expand 
the use of technologically advanced gear and techniques into the 
industry.

<bullet>  Work with manufactures globally to adapt and introduce gear 
and technological advances into the industry.

<bullet>  Member of Ad Hoc Shrimp Effort Management AP.

<bullet>  Winner of the 2008 NOAA NMFS Sustainable Fisheries Leadership 
Award in the Stewardship & Sustainability Category.

<bullet>  Prior to full-time employment with Western in 1997, I worked 
for the company during summer and holiday breaks throughout College and 
High School. I also worked for my father as a deckhand on the F/V Lynda 
Riley during summers prior to that starting at the age of eight. One 
could say I have seen and done all as it relates to the shrimping 
business.

                               Discussion

    Chairman Lampson. Thank you very much.
    At this time we will go into our first round of 
questioning, and the Chair will recognize himself for five 
minutes for that first set of questions.

                     Expanding H.R. 5618's Mandate

    I have a question for the whole panel, if some of you would 
comment, anyone who cares to. H.R. 5618 expands the Sea Grant 
program's mandate beyond its State and local focus to include 
regional and national issues. What is the benefit of expanding 
the mandate and how will the Sea Grant programs maintain their 
connections to the current State and local constituents, and 
aren't you already undertaking some regionally and nationally 
research and extension projects now? Go ahead, Mr. McLean, if 
you would like.
    Mr. McLean. Thank you, Mr. Chairman. I think that as the 
U.S. Commission on Ocean Policy recognized in terms of 
listening to a great number of citizens, a great number of 
constituents and encapsulating the challenges that are ahead of 
us in the marine and coastal environment, the regional approach 
to the solutions that arise within localized communities, 
coastal communities, these challenges and tasks are best 
approached regionally. The challenges don't know geopolitical 
lines, they don't know State borders and the like, and for us 
to be approaching them regionally is a very logical approach. 
The work that we have ongoing today in more broad-based 
application of science is not quite bringing home the value of 
the Sea Grant program. I think by relying on Sea Grant to be 
the leader in a regional solution to the scientific and 
technical challenges that we have today, we have a well-
practiced methodology that you have heard from the witnesses in 
terms of its effectiveness and its efficiency.
    I would also like to highlight the leadership that the Sea 
Grant program and each of the member institutions is showing by 
helping to lead a regional interpretation and a regional 
prioritization of what is now a national ocean research 
priority plan that was finally developed after many years of 
the ocean and coastal community wanting many different things. 
We now have a priority that we can come to you with, and 
identify what is the most important and we can concentrate our 
efforts in that regard. Sea Grant is leading the development of 
regional prioritization of these challenges so that we as a 
nation can have an agreed-upon path forward. I think the 
institution is very important to the success of that effort.
    Chairman Lampson. Okay.
    Mr. Anderson. Just on your second point, Mr. Chairman, yes, 
the regional planning approach that the Sea Grant College 
Program has undertaken over the last couple of years is 
yielding regionally specific prioritization of issues and 
research approaches to the national Ocean Research Plan and by 
doing so, we are able to bring each of the states in a region, 
for instance, my region, the Northeast, several states are 
involved and the Sea Grant programs bring to that discussion 
the varying complexions of those issues from each of the 
state's perspectives, but as soon as we get into that room and 
around that table and talk about these, we realize that there 
is more commonality with the challenges than there are 
differences and by me speaking for the University of Maine, for 
example, and sitting down with the director from MIT, you know, 
we are able to bring skill sets from all these different 
research institutions and universities from around our region 
to contemplate more innovative and interdisciplinary approaches 
to what these problems are, and as was just stated, those 
problem transcend geographic boundaries. So the regional 
approach really has been somewhat common in the Sea Grant 
enterprise, and now by formalizing this and making some 
explicit steps in that direction, I think we can really get 
some work done.
    Chairman Lampson. Okay. Mr. DeVoe.
    Mr. DeVoe. Just a quick comment. The need to look at issues 
and opportunities and resources on a regional basis is 
profound, as the Ocean Commission has pointed out. However, the 
reason Sea Grant will maintain its legs on the ground in the 
State and local levels is because a lot of decision-making 
occurs at that level. Eighty percent of all land use decisions 
are made at a municipal or local level. So we have to 
understand these issues from a broader perspective and the 
research needs to focus on climate change or sea level rise in 
a broader perspective. But there are nuances at a State and 
local level that need to be dealt with. The management 
structures and the policy structures are really at the State 
level. We don't manage regionally, we manage state by state. So 
what we are trying to do is add to the mix of tools and 
information to allow this decision-making to occur at a variety 
of scales.

                          Technology Transfer

    Chairman Lampson. Mr. Riley, I want to get you to talk a 
little differently than that, if I may. Give me your 
perspective on Sea Grant from, I guess, for the role that it 
plays in providing technical assistance and information to your 
industry. I know you gave a little bit of comments on that 
during your prepared remarks. What specific examples can you 
provide regarding tangible benefits that your community has 
received over the years from the Sea Grant activities?
    Mr. Riley. Well, of late it has been technology transfer, 
but there are too numerous to really mention in this forum. I 
would like to get back to you in writing on that. But take, for 
instance, as you all well know, the business I am in, the 
shrimp business is pretty tough these days, and going back into 
2003, when Sea Grant became aware of USDA money being available 
to commercial fisherman through the Trade Adjustment Assistance 
Program, there were some qualifications to that, being that to 
receive that funding, these fisherman had to be trained, and 
Texas Sea Grant along with that of all the others along the 
Gulf Coast and up the East Coast involved with shrimp fishery, 
Texas in particular set out a program, held 28 workshops from 
Port Arthur to Brownsville, trained 2,300 or so--this is by 
memory--2,300 or so eligible fishermen and were able to get 
them over 11, or close to $11 million in direct assistance, and 
that is pretty significant. And these are individual fishermen, 
not boat owners and things like that, because there was income 
qualifications to that. A lot of ownership did not qualify for 
this, you know, assistance, so this was directly to crews and 
captains and things of that nature. And without that training 
and without even, you know, getting the knowledge out or 
getting the word out, you know, a lot of this would have gone 
unrealized.
    And then you have today in our effort throughout the 
industry to become more efficient, and what we have kind of 
started in-house at Western has really ballooned into 
something, you know, pretty big with the numbers I have given 
you on fuel cost reduction. Sea Grant is working together on a 
regional basis and you have got guys from Texas going to North 
Carolina, which I accompanied them on that trip for a week of 
workshops for fishermen there, and the same thing is happening 
in Mississippi and there is, you know, all kind of feelers 
coming out from Louisiana and other Gulf states to get that 
kind of program running. So I mean, they do work well together 
in the extension end of it, and far as technology transfer, it 
is a good thing.
    Chairman Lampson. Thank you very much.
    I will now recognize Mr. Inglis for five minutes.

                              Aquaculture

    Mr. Inglis. Thank you, Mr. Chairman.
    I am interested in a number of things that I have heard in 
the testimony and seen in our charter. One is aquaculture, 
which I guess is something that we have begun in Sea Grant, 
right? I guess, Mr. DeVoe, we are pursuing that in South 
Carolina in various places.
    Mr. DeVoe. We are, yes, sir. And Sea Grant has supported a 
lot of research in aquaculture in the Southeast and in South 
Carolina. We still have a viable but small marine shrimp 
aquaculture industry. Back in the 1980s, crawfish farming came 
to South Carolina and actually it was some interaction between 
our Sea Grant extension specialist in aquaculture, Jack 
Whetstone, who met up with a fellow who has passed away since, 
but Larry Delabratante from Louisiana, and brought the ability 
to culture--brought the technology to culture, to grow crawfish 
in ponds to South Carolina. In South Carolina, though, the 
primary type of aquaculture that goes on is shellfish 
aquaculture so we have strong clam aquaculture, and there is 
work looking at trying to develop a single oyster aquaculture 
industry. As you know, our oysters are clusters naturally, but 
for single oyster aquaculture, which gets a premium price, that 
is being pursued. So there are a lot of opportunities there.
    Mr. Inglis. And some of those opportunities may involve 
things that Mr. McLean mentioned, the pretty nifty idea of 
submerging the barge and growing things there, especially with 
the pond-grown shrimp, Mr. Riley might hop in here because my 
brother also has a shrimp boat and he tells us, you know, you 
got to watch what you are eating when you are eating shrimp 
because the shrimp that you are eating may be absolutely chock 
full of antibiotics from wherever it has come from if it is 
grown in a pond. And so I suppose I am a little bit concerned 
about that, you know, and I wonder, do we do research on that 
at Sea Grant or does Sea Grant look at more the ocean-based 
shrimping rather than, say, pond-raised shrimp?
    Mr. DeVoe. I will say that Sea Grant's investment in 
aquaculture in the last decade has focused on sustainable 
shrimp culture and sustainable aquaculture in general. The 
issues with respect to, you know, what is in the shrimp that we 
eat that is cultured I think really plays out in the 
international scene and the importation of shrimp from 
overseas, which most consumers are buying because they are so 
cheap and it has affected the ability of the United States 
culture industry, and I am not--I mean, I am just saying. But 
it certainly has affected the viability, the economic viability 
of our domestic shrimp industry as well. So I think the focus 
has been in the last decade or so is trying to--they call it 
biosecurity to try to maintain a crop, if I could use that 
term, for the shrimp that does not contain the kinds of 
constituents that we might see coming in from overseas.
    Mr. Inglis. And maintaining that crop in the ocean, I 
guess, has another--speaking of antibiotics and 
pharmaceuticals, I take it we are doing some research on that 
sort of thing too through Sea Grant on whether sewage effluent 
is actually affecting the reproduction of shrimp and other 
kinds of species. Is that something that Sea Grant does or, do 
you have any research going on in that?
    Mr. DeVoe. I think that varies, depending on what region of 
the country you look. I know I can only speak for South 
Carolina, my region. The issues of stormwater runoff are 
extremely important, even though we are a relatively flat 
state, I mean, in terms of slope. There is still, during 
rainfall events, we will get a lot of runoff, and there are a 
lot of materials that do run off into our systems. We are 
concerned about that because the species that inhabit our 
estuaries and our tidal creeks tend to spend their youngest 
portions of their lives up in the upper headwaters of those 
creeks and that is where the connections are between the land 
and what is running off in the water.
    Coliform bacteria is of particular concern in terms of 
water quality and so there have been a number of programs 
throughout the country through Sea Grant's coastal community 
program to look at ways to manage stormwater on site or on land 
through various low-impact development scenarios and other 
things to try to minimize the flow of that water off land into 
our fragile estuaries.

                          Offshore Wind Farms

    Mr. Inglis. I grew up on one of those estuaries actually in 
Bluffton, South Carolina.
    One last question if I got time. Wind farms, Sea Grant does 
work on how those may work offshore?
    Mr. Anderson. Ocean-based wind farms?
    Mr. Inglis. Right
    Mr. Anderson. I think again, like Mr. DeVoe said, that 
depends on the region and the states that are involved. Some of 
our parts of our country are way ahead of others in terms of 
harvesting wind. Speaking for my region, there are engineers 
who have said that the Gulf of Maine is the Middle East of wind 
and that we have to start harvesting wind up there. There is a 
lot of wind. So there are indeed some explorations going on to 
do this kind of thing that may or may not be in State waters 
but certainly in federal waters, and some of the technologies 
that we will need to come to bear on that, the water is too 
deep up there. They will have to be tethered and floating 
structures, which requires a tremendous amount of new thinking 
around engineering, and I expect my program to be approached by 
that class of scientists in the coming years and we will 
entertain research proposals and try to feed some money into 
that important issue if we have the money to feed.
    Mr. Inglis. Thank you.
    Thank you, Mr. Chairman.
    Chairman Lampson. Thank you, Mr. Inglis. I was thinking but 
I will hold my tongue for a bit.
    Mr. Bartlett, you are recognized.

                      Conservation and Stewardship

    Mr. Bartlett. Thank you very much for your testimony. I 
received both my master's and my doctorate from a university 
that had a land grant college, and I don't know all the reasons 
why the College of Agriculture was one of the better schools in 
the university, and although my degree was from the College of 
Arts and Sciences, I took many of my courses in the School of 
Agriculture because they had better teachers and better 
courses. My course in advanced embryology was reproduction in 
poultry, for instance. Well, as a result of this focus, more 
than 50 years ago our university, the School of Agriculture, 
had an enormous focus on conservation and stewardship of our 
land.
    My perception is that we have related to our waters, both 
the lakes and the oceans, as if they were endless opportunities 
for exploitation rather than resources that require 
conservation and stewardship, and I am wondering if you believe 
the Sea Grant program will eventually have the same kind of 
focus on our waters for conservation and stewardship that the 
land grant colleges have brought to our land masses. I think 
there is increasing evidence that if we don't have that kind of 
focus, the opportunities for exploitation are going to be 
diminished in the future. What do you see?
    Mr. McLean. Mr. Bartlett, if I may, I think that the 
direction that the Sea Grant program is going in, and to a 
certain demonstrated extent has been, is to achieve a balance 
between the productivity of oceans and coastal environments and 
then to make sure that that productivity is in fact 
sustainable. It can only be sustainable by having an 
appropriately targeted conservation ethic and I think the 
research that Sea Grant undertakes is targeted to be community 
responsive and constituent responsive. Most of our coastal 
constituents are very aware of the facts around us regarding 
water quality and the availability of healthful seafood 
resources or other harvestable resources that come from the 
sea. I think conservation and productivity are very closely 
tied. The science that Sea Grant does reinforces this message 
and I think the new direction, or I should say, the enhanced 
direction of our strategic plan from Sea Grant and the 
individual Sea Grant institutes, the 32 institutes that 
comprise the program, are really targeting that direction that 
we need to be sustainable, we need to be conservation-minded 
but we also need to balance that with the productivity of the 
coastal communities and even the products that are shipped 
inland to other parts that are away from the coast. But our 
coast is our engine and we need to protect it. We need to 
protect it in terms of the resources, its sustainability and 
the coastal communities that rely on it. I appreciate your 
acknowledgement of that area.
    Mr. DeVoe. I would like to, if I may, offer a perspective. 
Sea Grant was created in the 1960s and it was to foster wise 
use and conservation of coastal, marine and Great Lakes 
resources. So I think the ethic that you describe is embodied 
in the program and it has been since the beginning. I think 
what we are dealing with today is--not today but over the last 
few decades--is the fact that the coast and the oceans and the 
Great Lakes have become much more--more and more attractive for 
people to come live, work and play along, and the challenge 
that we have as the Sea Grant program but also all of us have, 
you know, as stewards of these areas is to try to deal with 
that emerging pressure, those emerging pressures to try to 
maintain that balance as we move forward. It is not that we 
don't have a philosophy, but the challenges for us as a 
relatively modest program relative to the land grant system, 
which is more than order of magnitude higher in funding that 
the Sea Grant program is, does provide those challenges for us 
and may be one of the reasons why we would really like to see 
some more support for the program at the federal level and 
which we can then leverage that support at the State and local 
level.
    Mr. Riley. I can say that with the work that Sea Grant has 
done, especially in Texas and those involved in it, that they 
have shepherded the fishing community, which I am involved in, 
into becoming more sustainable and ecologically friendly. We 
are a little bit unique in the company I am managing in that we 
are diversified and have the funds available to do a little bit 
of research and become more efficient in our own harvesting, 
and at times some of that research has paved the way for Sea 
Grant to get out into industry as, you know, a greater whole 
and they have done an excellent job of trying to foster an 
attitude amongst commercial shrimpers in the Gulf to become 
more aware, become more sustainable. Of course, the key word 
these days in any fishing enterprise is sustainability but they 
have done an excellent job of, you know, fostering that line of 
thought and getting it out into industry.
    Mr. Bartlett. Thank you very much, Mr. Chairman.

                       Diversity of Participation

    Chairman Lampson. Thank you, Mr. Bartlett.
    Our second round, and I will recognize myself for five 
minutes.
    Mr. McLean, in the last reauthorization, the language was 
added to the provision on fellowships to ensure equal access 
for minority and economically disadvantaged students. How 
successful was the Sea Grant program or has it been in their 
efforts to involve minority-serving institutions and in the 
efforts to increase the diversity of students participating in 
the Sea Grant program?
    Mr. McLean. Thank you, Mr. Chairman. The addition of that 
language is a very important opportunity for us. We recognize 
in our workforce that we do not have currently in the ocean and 
coastal professions the construct of full representation 
throughout the image of America in our own workforce and we are 
working very hard to change the distribution, the appeal and 
the availability of opportunities to students from all 
universities and all areas. We have linkages with minority-
serving institutions in the Sea Grant program, in particularly 
in the southern end in the southeast area of South Carolina 
State, which was mentioned earlier, is a minority-serving 
institute and is part of the South Carolina Sea Grant Institute 
and also we have Jackson State in Mississippi and I have worked 
personally very closely with Jackson State in bringing 
scientists aboard our NOAA ships and throughout our science 
programs. I don't have a statistic or a number that I could 
report to you but I can assure you that our efforts are 
ongoing. I appreciate the opportunity that that language has 
given us in order to sustain our efforts to recruit a broad 
spectrum of students, and we even go further. We note that a 
few short years ago the distribution of women, for example, in 
the Sea Grant fellowship, in the Knauss Fellowship Program was 
approaching 50/50 in its distribution and I am happy to 
recognize now that the responsiveness in the students that we 
are placing in the Knauss fellowship are now 75 percent female, 
and we are trying to attain the same sort of positive growth in 
the direction of under-represented communities of students in 
our workforce and we think that the Sea Grant fellowships are a 
marvelous way to accomplish that.
    We have additional programs in NOAA that the Congress has 
supported routinely, and they represent educational partnership 
programs where we directly tie with additional minority-serving 
institutes. We have created Centers of Excellence in schools 
that are developing their programs in particular academic 
disciplines that reach NOAA sciences and NOAA-related sciences 
atmospherically and oceanically. We are working hard in that 
direction, and I think you can appreciate the change, the size 
of the rudder that we need to be turning is quite significant 
but we are working earnestly at it.

                       Matching Funds Requirement

    Chairman Lampson. Thank you. One of the provisions of the 
Administration's proposal is the matching fund requirements for 
the regional and national partnerships. The Administration is 
proposing that the partnerships as well as the interagency 
cooperation be exempt from the matching fund requirement. The 
matching fund requirement has provided leverage for the State 
programs to achieve all that they have thus far. So without 
these matching funds, where is the funding going to come from 
to do these collaborative projects? Anyone?
    Mr. Anderson. Well, I will speak to that. The matching 
component of the Sea Grant program has long been a hallmark of 
its construct and it is an important way for bringing our 
universities and our states to the issues. Some of the 
challenges of doing institutional arrangements and regional 
approaches that we have talked about earlier in the hearing 
have been encumbered by this matching requirement because 
administratively we end up with negotiations and some 
delicacies between institutions and between states about trying 
to meet these administrative obligations of matching and the 
fiscal arrangements that have to be set up to accommodate for 
that. Sometimes they become a distraction to the real science 
and the real approach that we ought to be taking so I think 
that there is value to considering this exemption so that we 
are able to focus on the work to be done and be able to bring 
the right players to the table and we still have the 
opportunity through our institutional arrangements to bring 
other resources to bear and make sure that it is an efficient 
arrangement. But I think that that is some of the motive behind 
this change.

                        Collaboration With NMFS

    Chairman Lampson. How close do you all work with the 
National Marine Fisheries Service?
    Mr. Anderson. I think that varies around the country but in 
some cases very, very closely, helping them with training and 
education of their council members. There has been many 
collaborative research science projects with some of the 
fisheries' management councils. I think that that relationship 
varies around the regions and based on some particularly 
challenging issues that some of our regions have had. Sea Grant 
is a science, unbiased--science-based, unbiased broker and a 
convener and I think the fisheries' councils have recognized 
that and brought us in when they can to help us.
    Chairman Lampson. Do we need to work on that more so? There 
is concern, and I would like for you to comment, if you don't 
mind, Mr. Riley, on some of this because I know that there are 
a lot of fishermen, particularly in the western Gulf of Mexico, 
who are concerned about some of the work that NMFS has done as 
far as snapper and snapper seasons and I know that that is the 
case in other places, and I know that your industry gets some 
of the brunt of some of the problem. But is there a way that--
some say that NMFS has too many folks that sit at desks and 
laboratories and don't know enough about what is happening on 
the water and it sounds like you guys know more about what is 
going on in the water. Is there a way to build that 
collaboration to a greater extent?
    Mr. Riley. I think in our case, especially with Texas Sea 
Grant and others around the Gulf, they have collaborated well 
with National Marine Fisheries Service, especially out of 
Pascagoula with the harvesting lab there. They have done so 
much on development of better TEDs, more efficient, you know, 
BRDs, or Bycatch Reduction Devices, which speaks to that 
snapper problem. But the problem is twofold in that snapper 
issue, and we would be here all day talking about that, but 
National Marine Fisheries Service I think bears too much of the 
brunt for what the Gulf Council in that particular setting has 
done. The National Marine Fisheries Service has used some sound 
science, at the time it was the best available science, which 
has changed, to make recommendations, and in that particular 
situation, the Gulf Council has not always heeded those 
recommendations and have set harvest levels above what even 
National Marine Fisheries Service was recommending. So, you 
know, they have become a scapegoat on that issue. But I do know 
that there is great collaboration right now of getting new BRDs 
out in the industry and the harvesting lab, which has purchased 
several thousand of three different types of devices, it is 
using the Sea Grant college program and the Gulf and South 
Atlantic Fisheries Foundation to get those out to the 
individual fishermen in different ports and that is a pretty 
good program to introduce them to some of these more efficient 
BRDs. Otherwise they would not be doing on their own just due 
to the cost constraints involved.

                      Fishing Industry Challenges

    Chairman Lampson. I am way over my time, but if you would 
just comment briefly as you can for me on the challenges that 
you face in this industry that you are involved with, and 
whether or not Sea Grant is well positioned to help address 
some of those issues in the future.
    Mr. Riley. Well, the biggest two challenges we face are 
high cost of inputs and low cost of product that we are putting 
on the market due to, you know, global competition. Nobody in 
this room is doing very well with $4-a-gallon diesel, and Sea 
Grant has been doing a great job of getting some of this gear 
that we kind of developed in-house but getting it out to the 
fishery as a whole to keep them, you know, fishing at a 
sustainable level. If you take the 30 percent mark at $4 a 
gallon, that boat can operate as if it is using fuel at $2.80 a 
gallon, and that is pretty significant.
    And also in the development and research we are doing on 
these BRDs, we are starting to have an issue now of crewing 
issues. We can't find willing participants to get on these 
boats for the lengths of time we are asking them to do it, and 
we are understaffed at times during high-volume periods, and it 
would behoove us to become more efficient with what we bring 
up, basically bring more of the target species up and eliminate 
anything else before it gets on the back deck to make it easier 
on the crews, and that is one aspect we have kind of taken in-
house at Western, and Sea Grant has done an excellent job 
through their Fishery Extension Service to, you know, foster 
that kind of thinking too amongst others.

                      More on Offshore Wind Farms

    Chairman Lampson. Thank you. Thank you very much.
    Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman.
    Back to the offshore wind farm concept, I understand that 
Minerals Management Service very recently, May 19, closed 
public comment and competing nominations for interim leases for 
data collection and research for some five-year leases. It is 
pretty exciting to be moving forward in that. And one of the 
challenges, as I understand it, is transmitting the power--if 
you do it offshore, transmitting the power back to shore is 
pretty expensive and you lose some energy that way. Any 
research you know that is going on in that regard or perhaps 
somehow storing the energy some other way or turning it into 
something else out there and then bringing it in some way 
besides a power line?
    Mr. McLean. It is not an area that NOAA is actively working 
in although I think the nature of the assessments that Sea 
Grant science has supported is to identify where are the most 
wind-prone areas that could be reliable generators of wind, and 
I believe that also in Oregon Sea Grant there are projects that 
are looking at wave-generated energies. But in terms of the 
actual electrical engineering component of that challenge, that 
would exceed our expertise.
    Mr. Anderson. I am sorry to say that I am not familiar with 
any particular institutions, certainly not mine, that are 
working in that world, it is probably superconductivity kinds 
of research, but I am sure somewhere there is.
    Mr. DeVoe. No, I am not familiar with that either, sir.
    Mr. Anderson. I could look into that for you and get back 
to you if you would like.
    Mr. Inglis. I guess probably a place that you all may get 
more involved is, there are issues involving species, impact on 
species about having the wind farms out there and that sort of 
thing. Of course, I suppose if you are looking at fisheries, it 
is a great opportunity because suddenly they got a place to 
live. But I guess for birds and that sort of thing, there is a 
little bit of a challenge. Anybody know of any research that 
you all are doing in that regard?
    Mr. Anderson. I will just say that you are certainly 
correct that that is an avenue that Sea Grant programs can help 
to bring some researchers and other science capacity to those 
issues around the conflict, the conflicting use, and certainly 
in the Northeast there have been some issues around a wind farm 
offshore near Cape Cod. I believe our colleagues in 
Massachusetts, the Sea Grant community and others, have been 
helping to bring those perspectives to the table and try to 
help these people sort out, yes, the science and what are the 
technical challenges that we have to address but also the other 
social science conflicts and Sea Grant's deep experience of 
bringing people together to help them understand and work 
through perspectives, so that we can learn to understand why 
other people have a differing perspective. Because in some 
ways, I think you are quite right, that is going to be one of 
the big challenges of getting these kinds of new innovative 
energy generation systems up and running, whether they are on 
the ocean or terrestrial.
    Mr. DeVoe. If I may, just one brief comment on that. One 
thing is that--two things. One is that the kind of research 
that would be needed to, you know, enhance transfer of energy 
from offshore to onshore probably would exceed the capacity of 
the Sea Grant program as a whole. I just think it is very high-
level and very expensive, very important, you know, type of 
research and I support what Paul and Craig have said about 
that. It is traditionally not an area that Sea Grant has 
engaged. However, a play on a little bit of what Paul mentioned 
is the fact that what--any kind of offshore energy development 
will require an onshore base of operation. So we will be 
dealing with these issues if they emerge, if this potential is 
actually realized, whether it is wind or waves or currents or 
maybe even back to traditional, you know, gas exploration, that 
sort of thing. It is going to have some effect on the coasts, 
and that is not a qualitative comment. It is just, it is going 
to have some effect on the coasts because they are going to 
need an on-land coastal base of operation. I think that is 
where we are going to be able to play a much more significant 
role in working with communities to help them think about how 
they want to shape that development. One of the provisions of 
the energy bill, if I am not mistaken, and I might be really 
off on this because I am not that familiar with it, was that 
there--and I don't think this component passed, was a 
requirement that an onshore base of operation could be 
identified but couldn't sway more than 50 miles one direction 
or another, and that puts a huge, sort of a huge challenge to 
that community or those communities that are within that zone 
to try to accommodate that kind of development. So the onshore 
connection is, in my mind, in my opinion, and we have 
acknowledged it in our strategic plan, is something that we 
will probably have to do as a state or have to deal with as a 
state and the best way to do that, as has been mentioned, is to 
bring the partners to the table and try to work through these 
challenges.
    Mr. Inglis. If you could work through as you did the turtle 
extruder question and bring those parties together, then there 
is hope.
    Mr. DeVoe. That might be easier.
    Mr. Inglis. Yes, that would be easier, I think.
    Thank you, Mr. Chairman.
    Chairman Lampson. Mr. Bartlett, further questions?

            Cooperation Between Sea and Land-based Programs

    Mr. Bartlett. Thank you very much.
    There is an old adage that says what is everybody's 
responsibility is nobody's responsibility, and this reality 
impacts you in two different venues. On the land side, you 
quite literally get dumped on. Most of my district, the water 
flows into the Chesapeake Bay. I have no land bordering the 
Chesapeake Bay but we are acutely aware of what we do on our 
land really impacts the health of the bay. Then when you get 
out into the oceans, our territorial waters run, depending upon 
where you sit, three miles or 20 miles, I guess, and that is 
only a tiny percent of the whole oceans out there and so the 
health of our national waters depends a great deal on 
internationally what is going on in the rest of the ocean. What 
kind of success are you having at forging partnerships on the 
land side so that you don't get dumped on and on the ocean side 
so that we don't get depleted because of excess harvesting by 
others?
    Mr. Anderson. I will speak to one particular partnership 
that the National Sea Grant Program was able to cultivate with 
the EPA over the last couple of years, and more speaking to how 
coastal communities or even communities up in the watershed 
such as yours are planning their development, planning their 
futures around honoring ecosystem principles. We call this 
smart growth, and that is the jargon that is being kicked 
around, but nationally, Sea Grant created a partnership program 
with EPA and both institutions with some NOAA money and EPA 
money were able to get going some competitive programs around 
the country to start bringing communities together and say all 
right, where are we going to have these kinds of activities, 
you know, thinking about things like impervious surfaces and 
agricultural development and other kinds of stormwater 
treatment, stormwater management, and try to do that in a 
collaborative, interdisciplinary way because oftentimes, as Mr. 
DeVoe referred to earlier, whereas a lot of our really 
important coastal decisions around ecological health are 
happening in a town and a municipality. We need to bring 
municipalities together and get them to think about these 
issues because they are living in a watershed together and so 
the smart growth program is just one example of trying to bring 
those towns together and learn some science principles and 
learn some best management practices, and Sea Grant has been--
we really--our role in that was bringing all the players 
together. You have heard that in all of our little stories here 
this morning, that our role is convening and getting people to 
understand one another's perspectives. So that is perhaps an 
example of something that we are trying to do to effect what 
you are talking about.
    Mr. Bartlett. Let me give you just one example of something 
that we do on the land which I think is really dumb, which 
impacts the quality of our waters. If you are not near a 
municipality so that you have public water and sewer, the only 
land that you can develop is by definition farmland because it 
can't slope more than 25 percent or they won't perk it, and it 
has to perk or they won't let you build on it. Land that slopes 
less than 25 percent and perks is by definition farmland, isn't 
it? And then when you put in a septic system, by law, they 
require you to take the effluent and inject it into the ground 
under the root zone of plants, and then they are distressed 
that there is an increase in nitrogen level because this 
nutrient which the plants would happily take up is now by law 
injected into the ground. It is not a recycling system. It is a 
disposal system and it is spawned of ignorance. What can you 
all do to change that? And by the way, you don't need either a 
well or ground which perks to build a house. More than enough 
water falls on the roof of your house to meet all of your needs 
for the year if you husband it. You don't have to be really 
rationing very much. And we now have composting toilets so that 
you could build your house out on the middle of the freeway 
when that gets abandoned because gas is too expensive. You 
could live very happily there. You know, what can you all do to 
bring some sanity to our land-based programs so that we aren't 
polluting the groundwater?
    Mr. McLean. Mr. Bartlett, thank you for that question. I 
can't promise you an exact solution but I could demonstrate the 
methodology that the Sea Grant program has taken in order to 
unite the heartland of the country with the coastal community 
and how what happens in the heart of the country or in the 
center of the country is being deposited, for example, in the 
Gulf of Mexico and where we have certain introductions of 
materials that aren't naturally occurring and they are having 
an environmental consequence in the Gulf of Mexico. In 
Oklahoma, in Norman, Oklahoma, we have established a position 
for a Sea Grant extension agent, and although Oklahoma's time 
as a maritime state is quite dated, geological epochs ago, and 
the fossil evidence is of course there, we are very proud to 
see that Sea Grant had the leadership and the forward thinking 
to be bringing a representative, an outreach representative who 
can communicate the challenges of the farming community to the 
coastal community and the coastal community back to the farming 
community. We are also looking there, and the purpose for this 
person's arrival was to build understanding for coastal 
resiliency, hazard resiliency, but certainly one of the threats 
to the coastal community are depositions, dumping and the like 
that takes place in other locations.
    But my point is to impress upon you the flexibility of the 
Sea Grant program and how we can bring various fields of 
knowledge to communities that aren't normally running into that 
conversation and I am hopeful that we could be doing more of 
this in the future.
    Mr. Bartlett. Thank you.
    Chairman Lampson. Thank you, Mr. Bartlett.
    Mr. Akin, would you like to be recognized?
    Mr. Akin. I didn't have any questions for the moment, 
especially after Roscoe's eloquence here.

                     Rainwater as a Drinking Source

    Mr. Bartlett. Mr. Chairman, if I could have just a moment 
to note something. I wanted to do a development where we were 
using rainwater from your house and it went into a cistern and 
the State people told me oh, you can't do that, you can't use 
rainwater. I said help me understand this. The rain falls on 
the hog lot and then the water goes from the hog lot into the 
creek and the creek goes into the reservoir and you pull it out 
of the reservoir and treat it a little and tell me that is 
drinking water. I said can I please have the water before it 
goes through the hog lot.
    Now, we really have some really silly regulations, and I 
hope that through your interest in maintaining the quality of 
our waters that you can counsel with our land people that they 
get some sanity into their regulations.
    Chairman Lampson. Mr. DeVoe, you wanted to make a comment?
    Mr. DeVoe. Thank you, just to comment on that, just to 
follow on with Mr. McLean's comment about Norman, Oklahoma. The 
Sea Grant program has established recently, formally 
established, a coastal communities program, and what the 
national office has done is, provided some limited resources, 
which I think a lot of our programs have leveraged, to develop 
capacity to have a special extension person but not in 
fisheries but in coastal development, and every state is 
addressing their issues, you know, in the way that is most 
appropriate for their states. But we have mechanisms in place 
throughout the Sea Grant network now where these are folks who 
are planners or they may have expertise in stormwater 
management or some aspect of development. Paul mentioned the 
smart growth thing, low-impact developments, some of these new 
ways of trying to deal with both existing developments and 
trying to minimize runoff or new developments, to try to 
incorporate technology into the development of those.
    But I would submit to you that as frustrating as this is to 
me and a lot of us, is that science only goes so far. We can 
provide as much of the best information with the best rationale 
that we could ever come up with and these decisions are not 
just science decisions. There are other considerations that 
decision-makers have to take into account when they make those. 
So I think we try as best we can to present the best 
information that we can generate through our universities and 
get it to you and other decision-makers in a fashion that is 
usable and understandable and then we sort of have to sit back 
and see what happens and see how the process works out.
    Our engagement with citizens and schools is a way to build 
that public awareness and it may be through a public 
perspective, there may be ways to change perceptions and also 
decision-making. But it is one of the challenges that we face 
as a science and information organization.
    Chairman Lampson. And I guess Mr. Bartlett would look for 
common sense in some of these things.
    Mr. Bartlett. I would. There is not a whole lot of that out 
there.
    Chairman Lampson. Mr. Akin.
    Mr. Akin. Just a comment for the benefit of Mr. Bartlett, 
we lived 25 years in a house where our water supply was off the 
roof in a big cistern. The only thing we got wrong was, it was 
an asbestos roof.
    Chairman Lampson. Thank you all for appearing here today. 
We very much appreciate the time that you have taken with us.
    Under the rules of the Committee, the record will be held 
open for two weeks for Members to submit additional statements 
and any additional questions that they might have for the 
witnesses. This hearing is now adjourned.
    [Whereupon, at 11:18 a.m., the Subcommittee was adjourned.]























                               Appendix:

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Statement of John T. Woeste
              Vice Chair, National Sea Grant Review Panel,
              Office of Oceanic and Atmospheric Research,
            National Oceanic and Atmospheric Administration,
                      U.S. Department of Commerce

            Before the Subcommittee on Fisheries and Oceans
                     Committee on Natural Resources
                     U.S. House of Representatives
                             April 3, 2008
    I am Dr. John T. Woeste, Professor Emeritus and retired Dean of the 
University of Florida's Institute of Food and Agriculture Sciences. I 
serve as Vice Chair of the National Sea Grant Review Panel, a Federal 
Advisory Committee comprised of 15 individuals who advise the Secretary 
of Commerce through the Under Secretary of Commerce for Oceans and 
Atmosphere, and the Director of the National Sea Grant College Program 
on scientific and administrative policy. The Panel functions as an 
advisory body in accordance with the Federal Advisory Committee Act 
(FACA). The National Sea Grant College Program is NOAA's primary 
university-based program in support of coastal resource use and 
conservation. Sea Grant's research, outreach and education programs 
promote better understanding, conservation and use of America's marine 
and coastal resources.
    I am pleased to be here today to tell you about the National Sea 
Grant College Program. Specifically, I will discuss the role of the 
National Sea Grant Review Panel (Panel), Sea Grant's leadership and the 
program's return on investment, enhancements to Sea Grant's evaluation 
process, the importance of continuing this vibrant program, and the 
Panel's role in the future.
    The Panel recognizes the vision and important role that past 
Congresses have played in enacting the Sea Grant Act and its subsequent 
reauthorizations. Thank you for your support of this program, for your 
recognition of the importance of sustainable coasts to the U.S., and 
for your confidence in Sea Grant as part of achieving that vision.

Establishment of the Sea Grant Review Panel

    The Sea Grant Review Panel was established by the Secretary of 
Commerce as directed by Section 209 of the National Sea Grant Program 
Act of 1976. The Panel advises the Secretary of Commerce acting through 
the Under Secretary of Commerce for Oceans and Atmosphere and the 
Director of the National Sea Grant College Program with respect to: 
Applications or proposals for, and performance under, grants and 
contracts awarded; the Sea Grant fellowship program; the designation 
and operation of Sea Grant Colleges and Sea Grant institutes, and the 
operation of Sea Grant programs; the formulation and application of the 
planning guidelines and priorities established by the Secretary; and 
other matters as the Secretary, Under Secretary, or Director refer to 
the Panel for review and advice. The body consists of fifteen voting 
members appointed by the Secretary.
    The Panel, in its advisory role, worked closely with the National 
Sea Grant Office and the Sea Grant Directors, through the Sea Grant 
Association (SGA), to address areas of concern related to this 
reauthorization, and to seek consensus on the issues. A series of joint 
meetings and conversations helped to philosophically align Sea Grant's 
three leadership bodies and generate widespread consensus on proposed 
positions. The Panel also considered several reports relevant to the 
legislation: ``Building Sea Grant: The Role of the National Sea Grant 
Office,'' a 2002 Panel report providing a review and analysis of the 
organization, administration, and management of the NSGO; and, the 
National Research Council (NRC) report, ``Evaluation of the Sea Grant 
Review Process'' (2006), which assessed the impact of Sea Grant's 
evaluation process and procedures on the organization as a whole. As 
the National Sea Grant College Program implements the NRC report and 
realizes its new national strategic plan, ``NOAA National Sea Grant 
College Program, Strategic Action Agenda 2009-2013: Meeting the 
Challenge,'' collaboration among the three leadership bodies will be 
further enhanced, better positioning the program as a powerful and 
coordinated national leader in research and education for the 
sustainable development of Great Lakes, marine and coastal resources.

Sea Grant Leadership

    The National Sea Grant College Program has become a leader in 
advancing the science and practice of managing our coastal and marine 
resources. The program last had its legislation reauthorized 
unanimously by Congress in November 2002 with a virtual doubling of its 
authorized appropriation.
    In order to meet some of the greatest challenges confronting our 
nation--namely, urbanization and coastal development--Sea Grant has 
become strategically flexible, creating organizational adaptability and 
responsiveness through an open, empowered, distributed management 
structure focused on results and service to constituents. These 
management changes, implemented over the past decade, have enhanced Sea 
Grant's efficiency, effectiveness, overall performance and user input. 
There is now a mind set of accountability against exacting performance 
criteria. As a result, Sea Grant's reputation has grown accordingly. 
The organization's performance scores have demonstrably improved, 
indicating that Sea Grant is effectively getting resources to 
problems--the right problems as defined by both NOAA's mission and 
constituent input.
    A major report from the Pew Oceans Commission (2003) noted, ``. . . 
a growing crisis in America's oceans and along our coasts,'' and 
identified nine major threats to oceans--several of which Sea Grant is 
well-positioned to address. The National Sea Grant Law Center 
contributed its legal expertise to the Commission, and several Sea 
Grant studies are also cited in the report.
    The environmental challenges and Sea Grant's role in the emerging 
U.S. ocean agenda were also well defined in the U.S. Commission on 
Ocean Policy (USCOP) report published in late summer of 2004. Sea Grant 
received almost 50 citations in the USCOP report, including a specific 
call for increases in budget and high praise for Sea Grant's 
educational activities. Sea Grant was also one of the few programs 
named in the President's 2005 Ocean Action Plan in response to that 
report. This recognition is eloquent testimony to Sea Grant's growing 
impact on national ocean policy and research.
    As you are well aware, the National Ocean Research Priorities Plan 
(ORPP) and Implementation Strategy issued by the National Science and 
Technology Council's Joint Subcommittee on Ocean Science and Technology 
on January 26, 2007, identifies research priorities and calls for the 
engagement of a broad array of ocean science sectors to address high 
priority research needs and opportunities. Sea Grant is ideally suited 
to implement regional ORPP and national priorities. Presently, Sea 
Grant is developing regional research plans to support these 
priorities. These regional research and information planning efforts 
will consider the full scope of issues outlined in the U.S. Ocean 
Commission Report and Ocean Research Priorities Plan and will include 
other local, State, regional, federal, and non-governmental agencies.
    As further testament to Sea Grant's strong leadership, Dr. Ronald 
C. Baird, former Director of the National Sea Grant College Program, 
was awarded two Presidential Rank Awards for Meritorious Executives 
(2000 and 2006) for his work in helping to position the United States 
as a world leader in marine research and the sustainable development of 
coastal resources. Dr. Baird would be the first to assert that the 
great achievements of the National Sea Grant College Program 
contributed to his successful nominations.
    Sea Grant's scientific capabilities and forward-thinking, 
innovative, stakeholder-focused organizational culture, coupled with 
performance-based accountability, have earned it a reputation as a 
highly effective national program. Strong leadership and an ability to 
develop partnerships and coalitions among federal, academic and private 
sector organizations to address critical, complex issues, characterizes 
the Sea Grant program, and resides at the core of this nation's ability 
to manage our coastal resources as we confront unprecedented population 
growth and development.

Sea Grant's Program Evaluation Process and Return on Investment

    In 1994, the National Research Council (NRC), which functions under 
the auspices of the National Academy of Sciences, reviewed the National 
Sea Grant College Program. The NRC recommended several actions, 
including carrying out systematic, periodic reviews of the individual 
programs. In response, Sea Grant developed an evaluation process that 
relied heavily on detailed site reviews carried out by an external 
Program Assessment Team every four years, beginning in 1998.
    The NSGO, in consultation with the National Sea Grant Review Panel 
and the Sea Grant programs, implemented this new program evaluation 
protocol. From 1998 through 2007, the Panel conducted 59 program 
reviews and provided over 500 review recommendations designed to 
enhance and improve the performance of each Sea Grant program. At 
present, the Panel is pleased to report that approximately 95 percent 
of the program review recommendations have been implemented, resulting 
in a healthy, relevant, rigorously assessed and highly productive 
National Sea Grant College Program.
    This program evaluation process, together with the successful 
implementation of program review recommendations, has produced, and 
continues to produce, substantial improvements in the design, 
direction, operation and management of the individual State Sea Grant 
programs that comprise the National Sea Grant College Program. The 
Panel's intensive, on-site reviews of every program have affirmed our 
belief in the quality of the Sea Grant programs, and formed a solid 
basis for our conviction that Sea Grant's work is relevant and 
indispensable to achieving the Nation's vision for the future.
    As a result of Sea Grant's performance-based evaluation protocol, 
linking performance to merit-based resource incentives, there is now 
greatly increased accountability, and a strong commitment to continuous 
program improvement. The organization's capacity to produce quality 
science and to support informed decision-making with research 
information is formidable and demonstrative of Sea Grant's commitment 
to relevant service in the interest of our nation.
    Performance metrics based on impacts provide accountability for Sea 
Grant's research, education and outreach programs. Sea Grant's 
commitment to engaging the best scientific expertise within coastal and 
Great Lakes states and regions has resulted in exemplary performance 
and results. As a result, Sea Grant impacts have brought meaningful 
benefits to the Nation, and they have demonstrated a significant return 
on the federal dollar. One recent example, among many, makes the point. 
A protective mesh for clams developed by Sea Grant researchers and 
applied by the industry has resulted in an increased yield valued at 
almost $40 million per year to the New England clam industry.
    Most impressive, however, is Sea Grant's return on investment to 
U.S. taxpayers. Sea Grant has long been known for its economic 
contributions and positive return on investment. The organization's 
non-federal matching requirement results in substantial leveraging of 
additional effort. Each Sea Grant program must generate matching funds 
equal to at least 50 percent of the federal investment. The Sea Grant 
programs' ability to consistently produce match funding is a testament 
to their responsiveness as well as to their relevance to the needs of 
stakeholder and interest groups. Additional financial leverage is 
achieved through cooperative partnerships with federal and State 
agencies. This ability to leverage resources and engage issues in 
partnership with other entities, is, we believe, unparalleled in 
government.
    Sea Grant also mobilizes volunteers to participate in efforts such 
as beach clean-ups, aquatic invasive species awareness programs and 
water quality monitoring efforts. In one state alone, Sea Grant saved 
taxpayers $120,000 in the annual Beach Sweep/River Sweep litter cleanup 
program. Over the past 14 years, more than 75,000 volunteers have 
collected 728 tons of trash and have saved State taxpayers more than 
$1.6 million as part of that effort. Collectively, thanks to Sea Grant 
extension efforts in 2007, 15 Sea Grant programs worked with citizens 
in their communities who generated a total of 32,205 volunteer hours.
    The Panel is proud that the National Sea Grant College Program is 
one of few federal programs to have implemented such a rigorous and 
progressive evaluation protocol--a protocol that both promotes 
accountability and ensures ongoing and continuing improvement--and a 
protocol so esteemed that it has significantly influenced internal 
evaluation procedures currently utilized by several other federal 
programs. Through this evaluation process and its advisory oversight, 
the Panel has sought to ensure that Sea Grant investments address the 
ever-emerging needs of the United States public and of the ecosystems 
in which they reside.

National Research Council Review (2006)

    The National Sea Grant College Program Act Amendments of 2002 (P.L. 
107-299) directed the National Oceanic and Atmospheric Administration 
(NOAA) to contract with the NRC a second time, ten years after its 1994 
report, to conduct a review of the evaluation process and make 
appropriate recommendations to improve its overall effectiveness.
    The subsequent NRC report, ``Evaluation of the Sea Grant Review 
Process'' (2006), assessed the impact of the new procedures and 
evaluation process on Sea Grant as a whole. Among the areas considered 
were: the quality of work produced by the program; its responsiveness 
to national, regional and local needs; and, the quality of its 
leadership, management and reputation. The NRC committee was also asked 
to make recommendations for improving the overall effectiveness of the 
evaluation process to ensure fairness, consistency and enhancement of 
performance. The NRC report includes recommendations that guide the 
improvement of an already successful evaluation program.
    The NRC concluded ``real improvements have occurred'' in the 
National Sea Grant College Program since changes instituted after the 
last NRC evaluation in 1994. The NRC further stated that the program 
evaluation process established in 1998 ``has led to improvements to the 
overall program.''

Sea Grant's Response to the NRC

    In response to the set of 24 NRC recommendations, Sea Grant is 
developing a five-year national strategic plan and an Integrated 
Planning, Implementation and Evaluation (PIE) System. The PIE system 
reflects substantial input from the Panel and the Sea Grant network 
through a variety of formal and informal processes.
    The new integrated planning and assessment system is strongly 
endorsed by the Panel, in large part because it not only builds upon 
the former program assessment process, but it introduces several new 
concepts designed to better integrate Sea Grant planning and management 
to produce significant outcomes, fulfill program accountability 
expectations and retain the initiative for continued program 
improvement. In keeping with the NRC's intent, the Panel strongly 
agrees that a rigorous and competitive program evaluation process is 
critical to Sea Grant's success as a strong, vibrant and accountable 
program.
    The National Sea Grant College Program has long placed a premium on 
careful planning and rigorous evaluation at the State program level to 
ensure that Sea Grant would have the greatest impact at the constituent 
level. By developing a system that capitalizes on these capabilities at 
the national level, Sea Grant will be able to enhance its impact as a 
national program. The Panel also feels that better integration of 
planning, implementation and evaluation activities will maximize Sea 
Grant's efficiency at all levels, making the best use of limited 
resources and providing increased benefits to the public. More 
specifically, the new system is intended to separate aspects of the 
evaluation process focused on program improvement from those designed 
to rate performance, to encourage collaboration, to reward performance, 
to provide accountability, to retain program flexibility to address 
local issues, and to increase efficiency.

Ranking Sea Grant Programs

    The NRC expressed concern about the narrow focus on ranking 
programs and distributing competitive funds as impediments to the 
NSGO's oversight role in improving individual programs. The Panel 
agrees with the NRC's conclusions and invites Congress to consider 
removing the statutory provisions for ``ranking'' programs as directed 
in Section 1123, National Sea Grant College Act Amendments of 2002 
(P.L. 107-299) (``rate the programs according to their relative 
performance into no less than five categories, with each of the two 
best-performing categories containing no more than 25 percent of the 
programs.'').
    The ranking component included in the current legislation needs to 
be eliminated because it has had the unintended consequence of 
providing a powerful disincentive for collaboration within the Sea 
Grant network. We are also concerned that the requirement could impede 
desired regional and national cooperation.

Sea Grant's Buying Power

    The Panel also wishes to express concern over another impediment to 
Sea Grant's success. Despite rigorous reviews and accountability 
measures, and a strong, proven program that represents a sound 
investment of public funds, Sea Grant's buying power continues to 
erode. If this trend continues, the promise and potential of Sea 
Grant's contributions and impacts to our nation will all but diminish.
    The Panel believes that Congress got it right in 2002 when it last 
authorized the Sea Grant program at its 2008 authorized amount, which 
totals $103,000,000 (Section 1131(a) ). The Panel believes that this 
amount is necessary to meet our nation's ever growing marine and 
coastal needs, and to realize Sea Grant's promise as a leader in 
helping our citizens address the issues with science-based information 
and useful technologies. We note, Madam Chairwoman that the current 
appropriation is $57,100,000, and that the appropriation has been no 
greater than $61,889,000 since the 2002 Reauthorization.
    To illustrate the long-term erosion of Sea Grant's buying power, I 
refer you to three charts at the end of this document that show Sea 
Grant's funding history since 1970. Chart 1 shows Sea Grant's 
appropriated funds per year, and except for the past three years the 
data depicts a modest rise in Sea Grant's appropriations over this 38-
year period. Chart 2 shows Sea Grant's annual appropriations in 2007 
dollars after adjusting for inflation by applying the Consumer Price 
Index (CPI). By adjusting for inflation, Chart 2 shows a modest but 
steady decline in Sea Grant's buying power since 1980. Most analysts 
agree that the deflator for research and development has risen faster 
than the CPI. Chart 3 shows Sea Grant's appropriations in 2007 dollars 
by using a CPI plus 2% deflator, which represents a hypothetical but 
realistic deflator for research and development expenditures. Chart 3 
more clearly illustrates the serious and significant decline in Sea 
Grant buying power since 1980. Currently, Sea Grant would require a 
$190,000,000 appropriation to have the level of buying power it had in 
1972, its peak year when adjusted for inflation. As a result of recent 
in-depth analysis, the Panel has become very concerned about the 
trends, contributing factors and appropriate measures to reverse these 
declines in the face of mounting concerns for our nation's coastal and 
marine resources.

Strong National Leadership

    This disappointing fiscal trend has limited Sea Grant's ability to 
apply its unique combination of resources to address the ever-growing 
challenges facing the marine and coastal environment and the coastal 
economies dependent on this environment. Additionally, because of the 
five percent legislative cap on the administration of programs imposed 
by current legislation, the National Sea Grant Office currently has 40 
percent fewer staff than it had in 1991 (29.0 vs. 17.4 Full-Time 
Equivalents).
    The Panel reviewed the role of the National Sea Grant Office twice 
since 2002, (Duce, 2002; and, Heath, in preparation for implementation 
of the national strategic plan and PIE system). Both reviews concluded 
that staff erosion has seriously diminished the NSGO's ability to 
provide the national leadership necessary to adequately support the Sea 
Grant network, and to represent the network within NOAA and at the 
national level. The Panel's analysis shows that an increase in the cap 
on the administration of programs from the current level of five 
percent to the higher level of seven percent is necessary to enable the 
NSGO to effectively fulfill its program leadership and inter-agency 
coordination roles. Shorting those roles, we fear, misses opportunities 
for the meaningful linkage of federal agency resources with optimum 
program integration and partnership efforts and opportunities 
addressing pressing national concerns.
    Sea Grant must increase its participation and leadership for ocean 
and coastal issues at the national level--a fundamental responsibility 
of the NSGO. Over the past several years, the NSGO has been unable to 
initiate and maintain the same level of strategic partnerships with 
other federal agencies and NGOs as in years past. If Sea Grant's 
``beltway'' presence continues to diminish, the Panel is concerned that 
significant opportunities to leverage resources will be lost, and that 
in the long-term, Sea Grant's visibility, reputation and capacity will 
suffer.
    Enhancing the NSGO's capabilities is not possible with the current 
five percent cap. In order to provide strategic leadership and 
effective program administration and support, Sea Grant's stature and 
participation at the national level must be enhanced significantly. As 
Sea Grant implements its new national strategic plan and the 
recommendations of the NRC, there will be strategic focus areas that 
require national leadership and coordination, and a rigorous evaluation 
process to oversee and manage--roles that will require attention by 
specialized NSGO staff, often on a daily basis, and with appropriate 
level of expertise.

The Panel's Role in the Future

    The Panel is currently revisiting its operational focus and mission 
in order to evaluate relevant, appropriate and emerging challenges, and 
to determine how to position Sea Grant to meet these challenges. As 
part of this process, the Panel will transition into an even stronger 
advisory role, bringing the significant knowledge and prominent 
expertise of its members to bear on issues critical to Sea Grant's 
success. We are particularly interested in examining how Sea Grant can 
use its unique capabilities to further the national interest. To answer 
this question, the Panel is examining several issues of importance to 
Sea Grant as part of its portfolio. These issues include: how to 
strengthen Sea Grant's research capabilities, how to couple Sea Grant's 
outreach capabilities with NOAA's climate applications programs and how 
to further the use of social sciences to solve coastal problems. Over 
the coming year, as Sea Grant begins implementation of its national 
strategic plan and enhances its robust program evaluation system, the 
Panel will be involved in an advisory capacity--serving on strategic 
plan focus area teams, participating in program site reviews, and 
offering high-level guidance and expertise in areas critical to Sea 
Grant's mission. Integral to this process, is sufficient ``hands on'' 
Panel engagement to facilitate a well-informed understanding of the 
goals, operations, issues and accomplishments of the network programs.

Conclusion

    In closing, we believe that Sea Grant is vital to NOAA's mission, 
to U.S. ocean science and to our nation's vision. This is an efficient 
and effective program, offering a proven place-based infrastructure, 
and engaging the academic capacity of our universities and colleges in 
generating products and science-based solutions needed by our nation's 
citizenry. Sea Grant engages our youth in exploration of the marine 
sciences, supports advanced academic training for a cadre of future 
professionals, and provides exceptional opportunities for early career 
leadership development. The Panel would like to thank the House for 
holding this hearing. We are grateful for your support of and 
confidence in the National Sea Grant College Program. We urge you to 
consider raising the administrative cap. This concludes my remarks, 
Madam Chairwoman and Members of the Subcommittee. Thank you for the 
opportunity to be here today. I would be pleased to provide additional 
information and to answer any questions you may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
